<html>
<title> - SECURITY COOPERATION IN MEXICO: EXAMINING THE NEXT STEPS IN THE U.S.- MEXICO SECURITY RELATIONSHIP</title>
<body><pre>[Senate Hearing 113-148]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 113-148

 SECURITY COOPERATION IN MEXICO: EXAMINING THE NEXT STEPS IN THE U.S.-
                      MEXICO SECURITY RELATIONSHIP

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON WESTERN HEMISPHERE
                      AND GLOBAL NARCOTICS AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 18, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE

86-347 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






















                COMMITTEE ON FOREIGN RELATIONS          

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
CHRISTOPHER A. COONS, Delaware       JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois          JOHN McCAIN, Arizona
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
CHRISTOPHER MURPHY, Connecticut      RAND PAUL, Kentucky
TIM KAINE, Virginia
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

               SUBCOMMITTEE ON WESTERN HEMISPHERE        
                  AND GLOBAL NARCOTICS AFFAIRS        

                TOM UDALL, New Mexico, Chairman        
BARBARA BOXER, California            JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      MARCO RUBIO, Florida
TIM KAINE, Virginia                  JOHN BARRASSO, Wyoming
                                     RAND PAUL, Kentucky

                             (ii)          



















                            C O N T E N T S

                              ----------                              
                                                                   Page

Brownfield, Hon. William R., Assistant Secretary of State for the 
  Bureau of International Narcotics and Law Enforcement Affairs, 
  U.S. Department of State, Washington, DC.......................     7
    Prepared statement...........................................     9
Feierstein, Hon. Mark, Assistant Administrator for Bureau of 
  Latin America and the Caribbean, United States Agency for 
  International Development, Washington, DC......................    11
    Prepared statement...........................................    13
Jacobson, Hon. Roberta S., Assistant Secretary of State for 
  Western Hemisphere Affairs, U.S. Department of State, 
  Washington, DC.................................................     3
    Prepared statement...........................................     4
O'Neil, Dr. Shannon K., Ph.D., senior fellow for Latin America 
  Studies, Council on Foreign Relations, New York, NY............    24
    Prepared statement...........................................    26
Steinberg, Nik, senior researcher, Americas Division, Human 
  Rights Watch, New York, NY.....................................    29
    Prepared statement...........................................    31
Udall, Hon. Tom, U.S. Senator from New Mexico, opening statement.     1
Wood, Dr. Duncan, Ph.D., director, Mexico Institute, Woodrow 
  Wilson International Center for Scholars, Washington, DC.......    35
    Prepared statement...........................................    37

                                 (iii)



 
 SECURITY COOPERATION IN MEXICO: EXAMINING THE NEXT STEPS IN THE U.S.-
                      MEXICO SECURITY RELATIONSHIP

                              ----------                              


                         TUESDAY, JUNE 18, 2013

                           U.S. Senate,    
     Subcommittee on Western Hemisphere and
                          Global Narcotics Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Tom Udall 
(chairman of the subcommittee) presiding.
    Present: Senators Udall, Murphy, and Kaine.

             OPENING STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. I call this hearing of the Subcommittee on 
Western Hemisphere and Global Narcotics Affairs to order. Thank 
you very much.
    Today we are meeting to examine the next steps in the 
United States-Mexico security relationship; an important 
relationship that has grown stronger over the last decade. We 
have made real progress in working together and in addressing 
the destructive drug trade in the region. Our nations do not 
just share a border, we also share a history and culture that 
goes back centuries. In New Mexico and other border States, we 
value this shared history and the cultural exchanges that 
continue to grow and develop.
    So it is with a shared sense of purpose that we should work 
with Mexico to address the violence caused by drug cartels and 
also the underlying judicial and economic reforms that will 
prevent drug cartels from eroding society further in the 
future.
    We should be clear. The Mexican people and the Mexican 
nation are strong. While the violence is most reported in the 
news media, there are positive developments under way. Mexico 
has a growing economy and middle class. Many of its regions and 
cities have crime rates comparable to most U.S. cities and 
States. Furthermore, the people of Mexico have embraced 
democracy, with several peaceful transfers of power between 
competing political parties in recent years.
    But serious problems remain for the new administration in 
Mexico. Between December 2006 and November 2012 there were more 
than 60,000 deaths related to drug trafficking. According to 
some estimates, nearly 6,000 more deaths have occurred in the 
last 6 months. The numbers are staggering and especially for 
neighboring U.S. States like New Mexico and Arizona.
    In order to address drug trafficking and violence in 
Mexico, the United States announced the Merida Initiative in 
2007. Since then Congress has appropriated over $1.9 billion to 
support it. In addition, Mexico has invested nearly $47 billion 
to improve security and public safety. The Merida Initiative 
seeks to address violent crime in Mexico by focusing on four 
pillars: one, disrupting the operational capacity of organized 
criminal groups; two, institutionalizing reforms to sustain the 
rule of law and respect for human rights; three, creating a 
21st century border; and four, building strong and resilient 
communities.
    Reform of the criminal justice system in Mexico is of 
paramount importance. According to some estimates, only 13 
percent of all crimes are reported in Mexico due to fear of 
reprisal and lack of confidence in the authorities. As a 
result, Mexico has made it a goal to develop a more adversarial 
system, with prosecutors and defense attorneys, with new rules 
of evidence and criminal procedure to ensure that the rights of 
victims and defendants are respected. The United States, 
including the Department of State and the USAID, have been 
working to help Mexico at the state and federal level to help 
make this transition.
    Despite these efforts, reform has been slow. Judicial 
reform has only been fully implemented in three states and is 
partially implemented in nine. So there is a lot of work to do.
    In addition to judicial reform, there are new initiatives 
from President Pena Nieto's administration, for example the 
proposed gendarmerie, which may replace the military security 
role in some cases, and efforts to address criminality through 
preventive programs such as improving education and economic 
opportunities for regions torn apart by years of violence. I am 
looking forward to discussing how these efforts will impact 
United States cooperation with the Mexican Government and 
hearing more about your assessment of these changes.
    Today we have two very knowledgeable panels to speak about 
the next steps in the United States-Mexico security 
relationship. In the first panel we are joined by Assistant 
Secretary of State for Western Hemisphere Affairs, Roberta 
Jacobson; Assistant Secretary of State for the Bureau of 
International Narcotics and Law Enforcement, William 
Brownfield; and Assistant Administrator for USAID's Bureau of 
Latin America and Caribbean, Mark Feierstein.
    In the second panel, we will be joined by Dr. Shannon 
O'Neil, the senior fellow for Latin American Studies at the 
Council on Foreign Relations. We are also joined by Dr. Duncan 
Wood, who is the director of the Mexico Institute at the 
Woodrow Wilson International Center for Scholars, and Nik 
Steinberg, the senior researcher in the Americas Division of 
Human Rights Watch.
    Thank you to all the panelists for joining us today. Now I 
will turn to any of my--Senator McCain I don't think is here 
yet, so he may make a statement when he comes in. I don't know 
if you have a brief statement, Senator Kaine.
    Senator Kaine. No.
    Senator Udall. OK. Well, why don't we start with our 
witnesses--start, Roberta, with you. Because when we scheduled 
this we did not know we were going to have a vote at 3 o'clock, 
so if you try to keep to your 5 minutes I think that will give 
us--if you each keep to 5 minutes, and then we will, of course, 
have your statements in the record, and then we can get into 
questioning. So thank you very much for that, and please go 
ahead.

 STATEMENT OF HON. ROBERTA S. JACOBSON, ASSISTANT SECRETARY OF 
STATE FOR WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Jacobson. Thank you so much, Mr. Chairman, and, Mr. 
Chairman, thank you for being here. We are delighted to be here 
today. I will keep this very short. The full statement is 
submitted for the record and I will try and cut it further as I 
go.
    I really appreciate the opportunity to testify today about 
a relationship that President Obama has described as one of the 
largest and most dynamic relationships of any two countries on 
Earth. I have had the pleasure of working on Mexico during a 
fascinating and productive time in our relationship, initially 
as Director of Mexican Affairs, later as the Deputy Assistant 
Secretary covering North America, and now as the Assistant 
Secretary. I know firsthand the breadth and the complexity of 
this relationship, but I am also very lucky to have the best 
possible partners in Assistant Secretary Brownfield and 
Assistant Administrator Feierstein, both of whom I have known 
for many years.
    The United States and Mexico share one of the world's most 
vibrant and mutually beneficial economic relationships. Mexico 
is our second-largest export market and third-largest overall 
trading partner. We sell more to Mexico than we do to Brazil, 
Russia, India, and China combined.
    To increase competitiveness, foster economic growth and 
innovation, and explore ways to partner for global leadership, 
Presidents Obama and Pena Nieto announced on May 2 the 
establishment of a high-level economic dialogue. We hope to 
hold the first meeting of that group later this year. To 
increase trade flows, modernize border infrastructure and 
border management is essential. At the May meeting the two 
Presidents also reaffirmed their commitment to the 21st century 
border management initiative established to improve 
infrastructure, facilitate secure flow of legitimate commerce 
and travel, and strengthen law enforcement.
    In 2012 Mexico was our second-largest supplier of imported 
crude oil, the largest export market for United States refined 
petroleum products, a growing market for United States natural 
gas exports. We have negotiated and signed the U.S.-Mexico 
Trans-Boundary Hydrocarbons Agreement to provide a cooperative 
framework and greater legal clarity for the development of 
reserves that cross our border. And President Obama is 
committing to working with Congress to pass legislation to 
implement that agreement, and we look forward to working with 
the Senate to move that ahead.
    Since the Merida Initiative was announced in 2007, our 
cooperation with Mexico has centered on the recognition that we 
share responsibility for transnational criminal networks and 
for protecting our citizens. Under Merida, the U.S. Government 
has delivered about 1.2 billion dollars' worth of training and 
equipment. But it has also proved crucial to supporting the 
Mexican Government's efforts to build its rule of law 
institutions and reform the justice sector. Moreover, it has 
been an important element in the transformation of the 
bilateral relationship and the cooperation that we have.
    One in ten Americans, more than 30 million people, is of 
Mexican heritage. A robust Mexican-American community in the 
United States contributes to our culture, our values, our 
politics, and our social structures. Some 20 million Americans 
travel to Mexico every year for tourism, business, or study, 
and Mexico is home to the largest expatriate community for 
American citizens in the world, more than 1 million. These ties 
bring us together as families, as neighbors, as friends, and 
they contribute to our mutual understanding.
    During President Obama's visit to Mexico, he announced the 
creation of a bilateral forum on higher education, innovation, 
and research, which will begin meeting this year to develop a 
shared vision on education cooperation. Through this and 
President Obama's 100,000 Strong in the Americans Initiative, 
we encourage Mexican students to study in the United States, 
just as President Pena Nieto did.
    We have growing cooperation with Mexico on global and 
regional issues at the United Nations, at the OAS, and at other 
multilateral venues. Our common interest in the environment and 
clean energy is promoted through the Energy and Climate 
Partnership of the Americans and Mexico will host a ministerial 
on that subject in the fall.
    I want to thank you for being here and for your time today, 
and I look forward to your support as we strengthen our 
engagement with Mexico in the future.
    Thank you very much.
    [The prepared statement of Ms. Jacobson follows:]

     Prepared Statement of Assistant Secretary Roberta S. Jacobson

    Mr. Chairman, Ranking Member, and members of the committee, thank 
you for the opportunity to testify to the Western Hemisphere 
Subcommittee on ``Security Cooperation in Mexico: Examining the Next 
Steps in the U.S./Mexico Security Relationship.'' President Obama 
described the relationship between the United States and Mexico as 
``one of the largest and most dynamic relationships of any two 
countries on earth.'' The United States relationship with Mexico is 
indeed unique in that it touches the daily lives of so many Americans 
and Mexicans.
    I have had the great pleasure to work on Mexico at crucial stages 
in our relationship--initially as Director of the Office of Mexican 
Affairs, as Deputy Assistant Secretary covering North American affairs, 
and now as Assistant Secretary for Western Hemisphere affairs. I know 
firsthand that our relationship with Mexico is broad, complex, and 
relevant, filled with a dynamic mix of challenges and opportunities. 
Today I would like to review our progress with Mexico to strengthen our 
shared economic potential, our collective security, and our people-to-
people ties.
    When President Obama met with President Pena Nieto in Mexico on May 
2, the two Presidents spoke again of their commitment to bilateral 
partnership and built on the positive personal relationship they 
established at their first meeting in November 2012 in Washington. They 
agreed to take new steps to strengthen our economic relationship, 
enhance shared competitiveness, and create new trade, investment, and 
employment opportunities. The Presidents reaffirmed their commitment to 
collaborate on citizen security based on shared responsibility and 
mutual respect. They highlighted efforts to increase the connections 
between our peoples that enrich the culture and prosperity of both 
societies. The Presidents also reviewed our cooperation on global and 
hemispheric issues. Their discussion highlighted the extraordinary 
benefits we realize from our relationship that often do not make the 
daily headlines, but are profoundly relevant to our daily lives and to 
our future.
                     economic and energy engagement
    The United States and Mexico share one of the world's most vibrant 
and mutually beneficial economic relationships. Our economic links are 
the linchpin of our overall relationship. We are partners in an 
integrated enterprise whose success depends on us working together. 
Given the high degree of intra-industry trade, much of what we import 
consists of U.S. exports to Mexico processed further in Mexico. U.S. 
companies have more than $91 billion invested in Mexico, while Mexican 
companies are increasing their investment in the American economy, 
currently nearly $27.9 billion.
    It is difficult to overstate the importance of our trade 
relationship with Mexico. In 2012, two-way merchandise trade reached 
nearly $500 billion and services trade was $39 billion in 2011. Mexico 
is our second-largest export market and third-largest overall trading 
partner. We sell more to Mexico than we do to Brazil, Russia, India, 
and China combined. The United States is Mexico's largest trading 
partner. Together with Canada, Mexico and the United States comprise 
one of the most successful and competitive economic platforms in the 
world today. We have taken steps to strengthen that trading 
relationship. Last October, the United States and eight other countries 
welcomed Mexico (and Canada) to join the negotiations for the Trans-
Pacific Partnership (TPP). TPP is a high-standard, 21st century trade 
agreement that includes countries from one of the fastest-growing 
regions in the world.
    To increase competitiveness, foster economic growth and innovation, 
and explore ways to partner for global leadership, Presidents Obama and 
Pena Nieto announced on May 2 the establishment of a High-Level 
Economic Dialogue (HLED). We plan to hold the first meeting later this 
year. We will organize the dialogue around three broad themes: 
promoting competitiveness and connectivity; fostering economic growth, 
productivity, and innovation; and partnering for regional and global 
leadership.
    The HLED will increase cooperation in sectors that connect our 
economies, including transportation, telecommunications, and energy, 
and promote greater two-way investment. The dialogue will stimulate 
entrepreneurship and innovation, encourage the development of human 
capital, and examine regional and international initiatives, including 
our engagement on the Trans-Pacific Partnership (TPP), the Asia Pacific 
Economic Cooperation forum, and the G20.
    Given the massive flow of goods and people across our shared 
border, modernizing border infrastructure and border management is 
essential. At their May meeting, President Obama and President Pena 
Nieto reaffirmed their commitment to our 21st Century Border Management 
Initiative. At the April meeting of the initiative's Executive Steering 
Committee, senior representatives of both governments encouraged 
projects and initiatives that will improve infrastructure, facilitate 
the secure flow of legitimate commerce and travel, and strengthen law 
enforcement along the border.
    Our energy relationship with Mexico is a critical component of 
North American energy security. In 2012, Mexico was our second-largest 
supplier of imported crude oil, the largest export market for U.S. 
refined petroleum products, and a growing market for U.S. natural gas 
exports. President Pena Nieto has made energy reform a priority, and if 
it is successful, Mexico could attract international investment and 
expertise to reverse the decline in its oil production.
    We have negotiated and signed the U.S.-Mexico Transboundary 
Hydrocarbons Agreement. By establishing a cooperative framework and 
greater legal clarity for the development of reserves that traverse the 
U.S.-Mexico maritime border, it would benefit both the United States 
and Mexico. In his meeting with President Pena Nieto, President Obama 
committed to working with Congress to pass legislation to implement the 
Transboundary Hydrocarbons Agreement. Senators Wyden and Murkowski 
recently introduced S. 812, legislation which authorizes the Secretary 
of the Interior to implement the Agreement. We look forward to working 
with the Senators to move this important legislation forward.
    In Mexico, the Pena Nieto administration is pursuing a broad reform 
agenda with a focus on economic development. In just 6 months, Mexico 
passed major reforms in labor, education, and telecommunications. The 
Mexican Government announced plans for further reforms of energy, 
fiscal, and financial policy. Provided the implementing legislation 
accompanying these reforms leads to meaningful policy change, as is 
likely, these changes have the potential to reshape our neighbor's 
economic landscape and expand our economic engagement with Mexico.
                          security cooperation
    Since the Merida Initiative was announced in 2007, we have based 
our cooperation with Mexico on the recognition that our countries share 
responsibility for combating transnational criminal networks and for 
protecting our citizens from the crime, corruption, and violence they 
generate. Our unprecedented cooperation reflects our mutual respect and 
our understanding of the tremendous benefits our two countries can 
produce through collaboration. Our strong partnership improves citizen 
safety by fighting drug trafficking, organized crime, corruption, 
illicit arms trafficking, money laundering, and demand for drugs on 
both sides of the border.
    Our Merida partnership is organized around four pillars:

  <bullet> Disrupting the capacity of organized criminal groups;
  <bullet> Institutionalizing reforms to sustain rule of law and 
        respect for human rights;
  <bullet> Creating a 21st century border; and
  <bullet> Building strong and resilient communities.

    We are strengthening institutions, especially police, justice, and 
civil society organizations; expanding our border focus beyond 
interdiction of contraband to include facilitation of legitimate trade 
and travel; and building strong communities resistant to the influence 
of organized crime.
    Since the inception of the Merida Initiative, the U.S. Government 
has delivered about $1.2 billion out of $1.9 billion worth of training 
and equipment. The Merida Initiative has provided crucial support to 
the Mexican Government's efforts to build the capacity of its rule of 
law institutions and reform the justice sector, while enhancing the 
bilateral relationship and extent of cooperation between the U.S. and 
Mexican Governments. Our Mexican partners have invested at least $10 
for every dollar we have contributed to our Merida goals in Mexico. The 
U.S. contribution is vitally important.
    U.S.-Mexico bilateral engagement has been transformed over the last 
10 years, and the Merida partnership is an important component of this 
broader evolution in the relationship. President Pena Nieto and his 
team have consistently made clear to us their interest in continuing 
our close collaboration on security issues, most recently during 
President Obama's visit. The Merida Initiative continues to provide a 
comprehensive, flexible framework under which our partnership can move 
forward to the benefit of both Americans and Mexicans.
                         people-to-people ties
    The people-to-people ties that bind Mexico to the United States are 
strong and deep, and they enrich both countries. One in 10 Americans--
more than 30 million people--is of Mexican heritage. A robust Mexican-
American community in the United States contributes to our culture, our 
values, our politics, and our social structures. Some 20 million 
Americans travel to Mexico every year for tourism, business, or study. 
The cities and towns along our common border are interconnected. Mexico 
is home to the largest expatriate community of American citizens in the 
world--more than 1 million people. These ties bring us together as 
families, neighbors, and friends, and contribute to our mutual 
understanding.
    During President Obama's visit to Mexico, we announced new 
initiatives to use people-to-people links to build a stronger bilateral 
relationship. The Presidents announced the creation of a Bilateral 
Forum on Higher Education, Innovation, and Research to promote mutual 
prosperity, expanded opportunity, job creation, and the development of 
a 21st century workforce in both countries. The Forum, which will begin 
meeting this year, will bring together government, academia, and civil 
society to develop a shared vision on educational cooperation. Through 
President Obama's ``100,000 Strong in the Americas'' initiative, we 
encourage Mexican students to study in the United States, just as 
President Pena Nieto did. We also want to facilitate American students 
to study abroad in the hemisphere, including in Mexico, and greater 
academic mobility between our two countries. These initiatives will 
strengthen educational institutions in both countries, just as Mexico 
begins to implement its education reforms.
    President Obama also spoke in Mexico of his administration's vision 
for comprehensive immigration reform that respects our tradition as a 
nation of immigrants, but also a nation of laws; reform that recognizes 
the need to strengthen border security, but also to strengthen legal 
immigration. Although comprehensive immigration reform would affect 
Mexico more than any other country, President Pena Nieto publicly 
recognized that it is a U.S. domestic issue. Our border is more secure 
than it has ever been and illegal immigration attempts into the United 
States are near their lowest level in decades. Mexico announced its 
intention to improve border security along its own southern border, at 
least in part to reduce the flow of migrants who seek to transit Mexico 
on their way to the United States.
         new opportunities for drug demand reduction in mexico
    We are working together on new opportunities for drug demand 
reduction in Mexico. The Pena Nieto administration has made demand 
reduction one of the principal pillars of its crime and violence 
prevention program, with the objective of modernizing and expanding its 
addiction diagnosis and treatment capabilities.
    The United States and Mexico will be able to apply this approach to 
three areas of demand reduction policy--professionalizing addiction 
treatment counseling, improving Mexican capacity to research and 
develop addiction prevention and treatment methods, and expanding the 
prevalence and use of drug treatment courts.
                   global engagement and cooperation
    We are increasing cooperation with Mexico on global and regional 
issues. Mexico is an important player on the world stage--demonstrated 
by its hosting of the U.N. Climate Change Conference in 2010 and the 
G20 summit in 2012. Mexico joined the Wassenaar Arrangement, a 
multilateral export control regime, and the Nuclear Suppliers Group 
nonproliferation regimes. Mexico has made great advances on its own 
strategic trade controls--something we welcome from a major trading 
partner--and hosted the plenary meeting of the Global Initiative to 
Combat Nuclear Terrorism in May. We engage closely with Mexico on these 
issues.
    Our common interest in the environment and clean energy is another 
area of growing cooperation. Since the 2010 U.N. climate negotiations 
in Cancun, the United States and Mexico have maintained a high level of 
engagement. Mexican leadership has been critical to successful outcomes 
on a range of important environmental issues. We engage closely on the 
responsible and environmentally sound development of unconventional gas 
resources, as well as wind energy development, energy efficiency, 
cross-border electricity trade, a bilateral renewable energy market, 
and low-emissions development. We cooperate closely under the Energy 
and Climate Partnership of the Americas, for which Mexico will host the 
next Ministerial in the fall. President Obama also discussed with 
President Pena Nieto in May our interest in working with Mexico to 
engage with Central American partners in facilitating a robust regional 
electricity market.
                               conclusion
    When President Obama spoke to Mexican youth on May 3, he recognized 
the new, emerging Mexico that is strengthening its democracy through 
greater participation by civil society, creating new prosperity and 
enabling millions to rise from poverty, and courageously confronting 
challenges to its own security. He also outlined the potential of 
greater engagement by the United States with Mexico across the spectrum 
of our shared interests. President Obama challenged each of us to ``do 
more to unlock the potential of our relationship.'' I believe we are on 
the right path to do that--renewing our commitment or expanding 
initiatives that have served us well, and forging a new path where we 
see new opportunities.
    I thank the members of the subcommittee for your time today. By 
calling this hearing, you acknowledge the importance of the U.S.-Mexico 
bilateral relationship and the prominent role Mexico plays in our 
economic well-being and our security. I look forward to your support as 
we strengthen our engagement with Mexico and I am happy to answer any 
of your questions.

    Senator Udall. Thank you very much.
    Let us proceed with Mr. Brownfield.

STATEMENT OF HON. WILLIAM R. BROWNFIELD, ASSISTANT SECRETARY OF 
    STATE FOR THE BUREAU OF INTERNATIONAL NARCOTICS AND LAW 
 ENFORCEMENT AFFAIRS, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Brownfield. Thank you very much, Mr. Chairman, Senator 
Kaine. Thank you for the opportunity to appear before you today 
to discuss United States-Mexico security cooperation under the 
Merida Initiative.
    Senators, we do not start our discussion of Merida at point 
zero. Since our two governments agreed in 2007 that we share 
responsibility for the security threats affecting Mexico and 
agreed to cooperate in solving them, as Roberta just said, the 
United States has delivered $1.2 billion in support and 
assistance to professionalize Mexico's law enforcement and to 
build capacity under the rule of law, with this committee's 
strong support.
    The Mexican Government for its part has invested more than 
10 dollars for every dollar contributed by the United States to 
these shared challenges. And we have had an impact. More than 
8,500 justice sector officials and more than 19,000 federal, 
state, and local police have received training under Merida, 
the vast majority of it in Mexico, at Mexican training centers, 
but some of it here at home, where special skills or 
instruction are found at institutions like our International 
Law Enforcement Academy in Roswell or the New Mexico 
Corrections Department outside of Santa Fe, where more than 390 
Mexican corrections officials have developed advanced skills.
    The training we provide has shown results. Secure federal 
prisons in Mexico have increased from 5 to 14 and their quality 
has increased even more. The U.S. Government has provided 100 
million dollars' worth of inspection equipment, resulting in 
more than $3 billion in illicit goods seized in Mexico--a 
return on our investment of 3,000 percent.
    More than 50 senior members of drug trafficking 
organizations have been removed from the streets of Mexico and 
more than 700,000 Mexican students have received civic, 
education, and ethics training under the Merida Initiative. 
This subcommittee should take great pride in its support for 
the Merida Initiative and what it has accomplished for both the 
American and Mexican peoples.
    Senators, a new President of Mexico was inaugurated last 
December. As with all new governments, the Pena Nieto 
government came to office determined to formulate its own 
national security strategy and place its own stamp on the 
United States-Mexico bilateral relationship. The new government 
has sent some clear signals on the direction it wishes to go. 
It wants a single point of contact in the Mexican Government to 
coordinate Merida Initiative programs and operations, and 
greater focus on crime prevention and economic and social 
development. It wants greater engagement by Mexican state and 
local government and a sharper focus on human rights. It wants 
to strengthen the Mexican Attorney General's Office, 
professionalize the police, and build a new gendarmerie to lift 
the policing burden from the armed forces.
    Mr. Chairman, I have no problem with these signals. They 
are logical, they are coherent, they are good ideas. There are 
a number of details yet to be defined, but what we have now is 
fully consistent with our strategic approach to the Merida 
Initiative, where we support the four pillars, shift focus from 
equipment to training, and transition from federal to state and 
local institutions.
    As the President said in Mexico City 6 weeks ago, it is the 
Government of Mexico that decides how we will cooperate in 
Mexico. We have made an unprecedented and historic start to 
cooperation under the Merida Initiative during two different 
administrations in both Mexico and the United States. I expect 
to report even more progress to this subcommittee in the months 
ahead.
    Thank you, Senators, and I look forward to your questions.
    [The prepared statement of Mr. Brownfield follows:]

         Prepared Statement of Ambassador William R. Brownfield

    Chairman Udall, Senator McCain, and members of the subcommittee, 
thank you for the opportunity to appear before you today. In every 
society, citizen security underpins economic stability and allows 
trade, investment, energy development, and education exchanges to 
flourish. The partnership forged between the United States and the 
Government of Mexico over the past 6 years under the Merida Initiative 
exemplifies how strengthening citizen security supports these broader 
objectives. We have worked together to strengthen the capacity of 
Mexico's justice sector to counter organized crime and its violent and 
corrupting effects. Now is an excellent opportunity to recognize our 
shared accomplishments, acknowledge the common challenges we face, and 
look forward to the progression of our partnership.
                  development of the merida initiative
    The Merida Initiative was conceived in 2007 in an effort to enhance 
collaboration against the drug trade and build more effective justice 
sector institutions in Mexico. At the time of the program's inception, 
cartel-related violence had been increasing dramatically and corruption 
was a threat to rule of law. Mexican institutions were ill-equipped to 
deal with the challenges they faced. In 2008, Mexico took the important 
first step of passing constitutional reforms to overhaul its entire 
justice sector including the police, judicial system, and corrections 
at the federal, state and local levels. Mexico's institutional reforms 
and its objective of building strong institutions that its citizens can 
depend on to deliver justice provided a foundation for U.S. 
cooperation.
    Our Merida resources have helped advance Mexico's implementation of 
these reforms. Since the inception of Merida, the United States 
Government has delivered about 1.2 billion dollars' worth of training, 
capacity-building, and equipment. By no means did we go it alone: For 
every $1 of foreign assistance that America invested in our shared 
security goals, the Government of Mexico dedicated at least $10 of its 
own. Because our assistance was designed jointly with the Government of 
Mexico, many programs formed integral parts of Mexico's justice sector 
reforms and today enjoy a high level of sustainability.
    Our partnership with Mexico has demonstrated results. With our 
assistance, the Government of Mexico has: Augmented the 
professionalization of police units by providing training to more than 
19,000 federal and state police officers, 4,000 of which are federal 
investigators; built a stronger legal framework through the training of 
over 8,500 federal justice sector personnel; improved the detection of 
narcotics, arms, and money, reaching almost $3 billion in illicit goods 
seized; expanded secure incarceration at the federal level from five 
facilities with a capacity of 3,500 to 14 facilities with a capacity of 
20,000; and provided civic education and ethics training to more than 
700,000 Mexican students. Since 2009, Mexico has apprehended more than 
50 senior and mid-level drug trafficking organization (DTO) leaders, 
significantly disrupting all major Mexican DTOs.
    In line with Mexico's evolving capabilities, the Merida Initiative 
has undergone several planned transitions. These include: (1) a 
transition away from major equipment assistance intended to increase 
the government's reach toward additional training and capacity-building 
for personnel; and (2) a shift from focusing assistance on federal 
institutions to an increasing emphasis on state and local government 
capabilities. The Merida Initiative continues to be structured around 
the four pillar framework: (1) Disrupting the operational capacity of 
organized crime; (2) institutionalizing Mexico's capacity to sustain 
the rule of law and protect human rights; (3) creating a 21st century 
border; and (4) building strong and resilient communities. This 
framework, combined with the shift toward training and an emphasis on 
building capacity at the state and local level, will be the basis for 
our security cooperation with the Pena Nieto administration going 
forward.
                the merida initiative in 2013 and beyond
    Deliberations between our governments on how to proceed under the 
Merida Initiative have been productive and comprehensive. President 
Pena Nieto and his administration are committed to continuing our close 
collaboration on security issues under the four-pillar Merida 
framework, with a sharper focus on crime prevention and rule of law. 
The Pena Nieto administration has proposed a security strategy which 
includes strengthening the Attorney General's office, revising the 
practice of pretrial detention to better protect human rights, 
establishing a Commission for the Prevention of Crime, and creating a 
National Human Rights Program. The strategy also focuses on police 
professionalization by seeking to create a career professional service, 
consolidating police certification and vetting, elaborating protocols 
for police action, and creating a national training plan for police. 
These elements track well with the planning and direction of INL 
programming under the Merida Initiative for professionalized and 
credible civilian security.
    We continue to build on the success of several ongoing programs. 
For example, Mexico's federal corrections system is now a recognized 
international leader in corrections reform, with eight federal 
facilities already certified by the independent American Correctional 
Association. Mexico has begun to offer corrections officer training to 
its Central American neighbors, and the first class of Central American 
(Guatemalan) corrections officers graduated from Mexico's academy in 
July 2012. The reforms already underway, including the creation of an 
objective prisoner classification system and the construction of new 
facilities, are making great strides. Mexico's success in reforming the 
corrections systems at the federal level can serve as the launching 
point for supporting similar reforms at the state level, where 
significant challenges remain. We will support Mexico in assessing 
state facilities and in its efforts to undertake similar reforms at the 
state level.
    To help Mexico build policing capacity for its communities, we are 
putting in place the building blocks to expand police training to the 
state and municipal level. We have strengthened police academies in the 
states of Chihuahua, Sonora, Nuevo Leon, and Puebla by providing 
equipment and training materials, enabling them to serve as the 
backbone for training programs and to conduct regional training. We are 
building our joint state training program around this regional 
structure. This will not only enable us to provide training more 
effectively, but will enhance cooperation between law enforcement 
officials in neighboring states as they implement reforms.
    Building on the Pena Nieto administration's agenda for police 
professionalization, we are prepared to work with the Government of 
Mexico to enhance and professionalize existing law enforcement 
institutions to develop federal standards for Mexican officials in the 
areas of training, discipline training, and promotion. We would partner 
with the Mexican Government to provide international experts in 
policing standards and best practices, and facilitate regional working 
groups that integrate state, local, and federal entities to derive 
Mexico-specific standards. These standards would be designed to further 
police professionalization, facilitate greater observance of civil and 
human rights, and foster trust among the Mexican public in its police.
    On rule of law, we will focus on supporting Mexico in its 
transition to an accusatorial justice system, build on our efforts with 
the federal judiciary, and help to improve effectiveness in case 
management and court administration. Mexico's ambitious effort to 
reform its justice system by 2016 is in mid-stream and requires 
sustained focus and resources.
    Complementary to our assistance at the institutional level, we will 
also continue to support local communities by promoting behavioral 
changes for improving rule of law from the ground up, such as through 
our Culture of Lawfulness program. This program offers a civic 
education curriculum to schools in 29 of the 31 states in Mexico.
    To enhance our bilateral efforts to build a 21st-century border, we 
will continue to offer capacity-building support to Mexican law 
enforcement agencies involved in border security, further enhancing 
their ability to interdict illicit narcotics, arms, and money. We have 
offered specialized training for police and Mexican Customs officials 
that address advanced border security and import/export processing 
techniques and methodologies. This training is designed to produce a 
cadre of instructors who can then provide training within their home 
agencies, multiplying the effect of our initial investment. We are 
prepared to support Mexico in their efforts to strengthen the southern 
border, an area the Pena Nieto administration has prioritized.
    We will continue supporting Mexico's efforts to improve 
information-sharing among its agencies involved in the fight against 
money laundering and illicit finance, a priority area for the Pena 
Nieto administration. Enhanced Mexican interagency coordination will 
lead to more prosecutions and cash seized. We have already provided 
funding for the training of the Financial Intelligence Unit's (UIF) 
personnel, sophisticated financial analysis software, and the 
accompanying computer hardware. Given the expanded responsibilities of 
the UIF under the new antimoney laundering legislation passed in late 
2012, additional support may be needed to provide upgrades and expand 
their data center.
                               conclusion
    We are currently forging a new way ahead for the Merida Initiative 
with President Pena Nieto and his team. The discussions and 
collaboration have been frank and positive and the conversation is 
ongoing. Building strong and able justice sector institutions capable 
of dealing with organized crime and the accompanying violence and 
corruption, is a difficult and long-term endeavor. It takes years of 
dedicated and sustained work across numerous institutions and sectors, 
the political will to affect change, and the resources and stamina to 
see it through. Over the course of the Merida Initiative, the U.S.-
Mexico bilateral security relationship has proven steadfast and 
collaborative while including some notable transitions and changes 
along the way. Our support to Mexico over the past 6 years has achieved 
positive results, and I am confident that our collaborative efforts can 
continue.
    Thank you, Chairman Udall, Senator McCain, and members of the 
subcommittee, for your time. I will do my best to address your 
questions.

    Senator Udall. Thank you very much.
    Let us proceed now with Mr. Feierstein.

STATEMENT OF HON. MARK FEIERSTEIN, ASSISTANT ADMINISTRATOR FOR 
BUREAU OF LATIN AMERICA AND THE CARIBBEAN, UNITED STATES AGENCY 
         FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Feierstein. Mr. Chairman, Senator Kaine, thank you for 
the opportunity to discuss USAID's contributions to the Merida 
Initiative. It is a real honor to testify with my colleagues 
from the State Department. I think it is accurate to say the 
collaboration between our three Bureaus has never been 
stronger.
    Mr. Chairman, in Latin America and the Caribbean USAID is 
increasingly focused on helping the region's governments to 
reduce crime and violence. This is a matter of national 
security to the United States, as my colleagues have just 
noted, as well as economic and political imperative to the 
affected countries. Crime and violence are a severe drain on 
private and public investment in the Americas and the leading 
constraint to economic growth in some countries. Criminal 
activity is also arguably the greatest threat to democracy in 
some nations.
    Given the importance of reducing crime, we have made tough 
choices and managed in a period of tight budgets to maintain 
and even increase our funding for Merida programs. USAID's 
collaboration with the Mexican Government in this area has 
three principal goals: to improve the effectiveness of the 
judiciary; to bolster the capacity of communities to reduce 
crime; and to protect and defend human rights. To achieve these 
goals, we operate in a genuine partnership with Mexico, jointly 
designing and implementing programs.
    Five years ago, Mexico began a transition from the written, 
inquisitorial criminal justice system to the more open and 
transparent oral accusatorial system. USAID support of that 
transition at the state level ranges from helping to develop 
new laws, policies, and regulations to training judges, 
prosecutors, and public defenders. Later this year we plan to 
double the number of states where we support this training.
    The transition to the accusatorial system is already 
proving effective. Preliminary data suggest that in states 
undergoing the reform acquittal rates have decreased, judges 
are imposing longer sentences for serious crimes, and pretrial 
detention has been reduced.
    Strengthening the justice sector is vital to ensure that 
crimes are properly investigated, the accused treated fairly, 
and the guilty appropriately sentenced. Ideally, however, we 
can help avert that youth ever having to enter the legal system 
in the first place. Like its neighbors, Mexico has embraced 
preventative actions to reduce crime and violence. President 
Pena Nieto has launched a national crime prevention strategy 
with funding commitments of $9 billion.
    To support the Mexican Government's crime prevention 
efforts, USAID is testing approaches in three cities affected 
by drug-related violence and other criminal activity, Ciudad 
Juarez, Monterrey, and Tijuana. In each city we are partnering 
with local organizations and drawing on international expertise 
to develop models for safe urban spaces, provide job skills for 
at-risk youth, and improve the capacity of the government to 
keep citizens safe.
    One of the keys to success of our Merida activities has 
been the extent to which the private sector has supported our 
programs. For example, we partner with companies like Cisco, 
Intel, and Prudential to train youth from tough neighborhoods 
for jobs in technology and construction.
    Many of the approaches we draw upon are from the United 
States. Through an agreement with Los Angeles, USAID has been 
sharing that city's proven gang reduction and youth development 
tools with officials in Latin America. Last week a deputy mayor 
of L.A. met with government officials and civil society leaders 
in Mexico City and Monterrey to share the keys to L.A.'s 
success in reducing criminal gang activity.
    Among the segments of society most affected by crime and 
drug trafficking are human rights defenders and journalists. 
USAID is helping the Mexican Government to protect journalists, 
citizen bloggers, and others who expose crime and corruption. 
Last year we trained more than 150 Mexican journalists and 
human rights professionals on practices, tools, and 
technologies to protect themselves and their work.
    To increase law enforcement's awareness of international 
human rights standards and practices, we are also helping to 
train federal and state police. This year 250 officers earned 
master's certificates in human rights with USAID's support.
    Citizen activism is key to raising awareness and mobilizing 
action on the defense of human rights. So we are collaborating 
with Mexican organizations on campaigns to support the 
implementation of the government's human rights reforms and 
educate citizens about their rights.
    Mr. Chairman, we are encouraged by steps that Mexico has 
taken to reduce crime and violence, but we also recognize that 
defeating the powerful cartels and reducing other factors that 
contribute to crime will take time. USAID is prepared to 
continue to stand shoulder to shoulder with the Mexican 
Government and civil society in this endeavor. Their success 
will make the United States safer as well.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Feierstein follows:]

                 Prepared Statement of Mark Feierstein

    Chairman Udall, Ranking Member McCain, and members of the 
subcommittee, thank you for the invitation to appear before you today. 
I am grateful for the opportunity to discuss the U.S. Agency for 
International Development's (USAID) contributions to the Merida 
Initiative and to receive your advice and counsel.
    It is an honor to testify with my colleagues from the State 
Department, Assistant Secretaries Roberta Jacobson and William 
Brownfield. Collaboration among our Bureaus has never been stronger.
    In Latin America and the Caribbean, USAID is increasingly focused 
on helping the region's governments to reduce crime and violence. This 
is a matter of national security for the United States, as my 
colleagues have just noted, as well as an economic and political 
imperative for the affected countries. Crime and violence are a severe 
drain on private and public investment in the Americas and, according 
to studies by USAID and the Inter-American Development Bank, the 
leading constraint to economic growth in some countries. Criminal 
activity is also arguably the greatest threat to democracy in some 
countries in the region, corrupting governments, restricting citizen 
engagement, and undermining freedom of the press.
    In Mexico, USAID's collaboration with the Government on citizen 
security has three principal goals: to improve the effectiveness of the 
judiciary; bolster the capacity of communities to reduce crime; and 
protect and defend human rights. To achieve these goals, we operate in 
a genuine partnership. Every one of our programs is designed, 
developed, and implemented jointly with our Mexican counterparts. And 
our activities are coordinated with the State Department and other U.S. 
agencies to make for a comprehensive approach to crime reduction. And 
even in a time of tight budgets, we have nevertheless been able to 
increase and maintain our funding for Merida security programs.
    Five years ago, Mexico began a legal transition from the written 
inquisitorial criminal justice system to the more open and transparent 
oral accusatorial system. USAID's support of that transition in 12 
states ranges from helping to develop new laws, policies and 
regulations and train judges, prosecutors, lawyers and public defenders 
in the new criminal justice system. We are also helping the Mexican 
Government to create and strengthen institutions essential to the 
reform, such as internal training units, victims' assistance centers, 
alternative dispute resolution offices and pretrial services units. To 
prepare the next generation of Mexican lawyers and judges to 
effectively perform their functions under the new criminal justice 
system, we are assisting Mexican bar associations and law schools to 
develop their curriculum.
    Later this year, we plan to double the number of states where we 
are providing training and technical assistance. Our programs 
complement Mexico's significant contribution to the reform process, 
including building new courtrooms, providing infrastructure and 
staffing and expanding training and capacity development.
    The transition to the new system is already proving effective. A 
review of the process in five states has found a marked decrease in 
pretrial detentions, longer sentences assigned for serious crimes, 
reduced case backlogs and stronger alternative dispute mechanisms and 
victims assistance units.
    Strengthening Mexico's justice sector institutions is vital to 
ensure that crimes are properly investigated, the accused are treated 
fairly, and the guilty appropriately sentenced. Ideally, however, we 
can help avert that youth ever have to enter the legal process in the 
first place. Like its neighbors, Mexico has embraced preventative 
actions to reduce crime and violence, such as economic investments in 
communities and social programs designed for youth most susceptible to 
joining gangs. In February, President Enrique Pena Nieto launched a 
national crime prevention strategy, with funding commitments totaling 
$9 billion.
    To support the Mexican Government's crime prevention efforts, we 
are testing innovative approaches in three of the cities most affected 
by narcorelated violence and other criminal activity: Ciudad Juarez, 
Monterrey and Tijuana. In three communities in each city, we are 
partnering with local organizations and drawing on international 
expertise to develop new models for safe urban spaces, providing life 
and job skills for at-risk youth, increasing educational opportunities, 
improving the capacity of all levels of government to keep citizens 
safe and empowering communities to address the root causes of crime and 
violence. We will jointly evaluate the effectiveness of these 
activities with the Mexican Government as it considers their broader 
application across the country.
    One of the keys to success of our Merida activities has been the 
extent to which the private sector has assisted in implementing our 
programs. For example, we have partnered with companies like Cisco, 
Intel, and Prudential to train youth from tough neighborhoods for jobs 
in the growing fields of technology and construction.
    To truly ensure the sustainability of our efforts, we are 
increasingly supporting local organizations at the forefront of the 
effort to reduce crime and violence in Mexican communities. Such 
organizations as the Chihuahuan Business Foundation and Citizens 
Committed to Peace are bolstering their communities by, providing 
educational and professional counseling services, setting up after 
school programs and offering support services to youth and families 
affected by narcorelated violence and other criminal activity.
    Many of the approaches that we and our Mexican counterparts draw 
upon are from the United States, which have achieved dramatic 
reductions in crime in the past two decades. Through an agreement 
signed last year with Los Angeles, USAID has been sharing that city's 
proven gang reduction and youth development tools with officials in 
Mexico, as well as in Central America. Last week, a deputy mayor of Los 
Angeles met with Federal Government officials in Mexico City and with 
local authorities and civil society leaders in Monterrey to share some 
of the keys to Los Angeles's success in reducing criminal gang 
activity, including community policing models and tools to assess the 
extent to which individual youth are at-risk of joining a gang.
    Among the segments of society most affected by crime and drug 
trafficking are human rights defenders and journalists. Through the 
Merida Initiative, USAID is helping the Mexican Government to protect 
journalists, citizen bloggers, and others who expose crime and 
corruption. We are benefiting from lessons learned from nearly a decade 
of investments to enhance similar protection mechanisms in Colombia. 
Last year, we trained more than 150 Mexican journalists and human 
rights professionals on practices, tools, and technologies to protect 
themselves and their work, and we plan to reach hundreds more in the 
coming years.
    To increase law enforcement's awareness of international human 
rights standards and practices, we are helping to train federal and 
state police and the staff of the Mexican Government's new victims 
assistance unit. This year, over 250 officers earned master's 
certificates in human rights with USAID's support.
    Citizen activism is key to raising awareness and mobilizing action 
on the defense of human rights. So we are collaborating with Mexican 
organizations on campaigns to support the implementation of the 
Government's human rights reforms, including a groundbreaking 
Constitutional Reform that strengthens Mexico's human rights commission 
and elevates the country's international human rights commitments to 
the same level as their national laws.
    Mr. Chairman, we are encouraged by many of the steps that Mexico 
has taken to reduce crime and violence. But we also recognize that 
defeating the powerful cartels and reducing other factors that 
contribute to crime will take time. We are prepared to continue to 
stand shoulder to shoulder in support of the Mexican Government and 
civil society in this endeavor. Their success will make the United 
States safer.
    Thank you. I look forward to your questions.

    Senator Udall. Thank you. I really appreciate you staying 
on time so we can focus on questions.
    Senator Kaine, I appreciate you being here and if you would 
like to start the questioning, go ahead here.
    Senator Kaine. Well, thank you, Mr. Chair. It is great to 
be with each of the witnesses. I have looked forward to this 
hearing.
    Maybe a nontraditional starting question. If this was a 
hearing in the Mexican Congress and it was on the United 
States-Mexico security relationship, where it stands today, 
what do you think the testimony would be of Mexican 
governmental officials in the new government about what they 
would expect from the United States? We have heard very good 
testimony. I am a fan of each of your agencies and the work 
that you are doing about things that the United States is doing 
with Mexican institutions, funding and others, to strengthen 
them. What do you think we would be hearing as the testimony 
from Mexican gubernatorial counterpoints or counterparts or 
agency heads about things that they would hope that we would 
do, in addition to fund programs on Mexican soil?
    Mr. Brownfield. May I defer to you?
    Ms. Jacobson. I would be delighted.
    Thank you, Senator. You know, I think one of the first 
things I should say is one of the things you won't hear any 
more, because the dialogue with Mexico I think has changed 
significantly and all of my counterparts remember how often we 
heard from our Mexican counterparts that we were not doing 
enough and we were not doing it fast enough. It was a really 
serious problem at the beginning of the Merida Initiative, in a 
country where, frankly, we did not have much experience, if 
any, in foreign assistance. Setting things up to get things 
working in the right way and doing that jointly at every step 
with the Mexicans took us longer than we would have liked.
    I think that has changed dramatically. I think the delivery 
of so much of our assistance has made a big difference, so I 
don't think we would be hearing as much complaint about 
slowness to deliver.
    I do think that we would hear that they want us to remain 
engaged in many of the areas that we are, in particular pillar 
two and pillar four, if you will, of the Merida Initiative, 
which focuses on building institutions, police, justice, 
penitentiaries--and my colleagues have talked about that and 
the importance of that--and that pillar four, which frankly was 
a little slow to come on line, which is building those 
resilient communities.
    If I could, as a fan of the AID programs that work in 
communities in Tijuana and Monterrey and in Ciudad Juarez, I 
think those programs have shown really dramatic changes, and I 
do think our Mexican counterparts want more of that, of the 
work in communities, and are going to work to try and replicate 
some of the successes.
    So I think some of the areas that they have particular 
eagerness to work in are well within the Merida Initiative, but 
may get a little bit more attention and they might like to 
accelerate some of those.
    Senator Kaine. Thank you.
    Other perspectives on that question? Secretary Brownfield?
    Mr. Brownfield. I will just offer one additional point, 
Senator, to an excellent answer by Roberta. It's based upon my 
own personal experience during 3 years in Colombia from 2007 to 
2010, when in essence what was happening, in an earlier 
sensitive bilateral relationship, United States support for 
Colombia under Plan Colombia, was that after a certain period 
of time the issue that we were talking about was how to 
Colombianize the effort, which is to say how to do less direct 
involvement and participation by the United States Government 
and have the Colombian Government do more of these things 
themselves.
    History proved this was a positive development. What this 
meant was the institutions, the organizations, the agencies in 
Colombia, were able to take on these responsibilities 
themselves, thanks to, in no small measure, the support, the 
equipment, the training, the capacity-building that they had 
received from us. It would not surprise me at all that this 
will become much of the dialogue between the United States and 
Mexico in the coming years. Mexico is not Colombia. They are 
two very different countries, different histories, different 
cultures, different approaches, different relationships with 
the United States. But the logic is as we begin to see success 
in this cooperation, in this shared endeavor, we will see quite 
logically the Government of Mexico saying: These are things 
that we will do, these are decisions for us to make, these are 
areas where we would expect to be doing on our own these 
functions. I would say that is a healthy thing, not an 
unhealthy thing.
    Senator Kaine. Mr. Feierstein.
    Mr. Feierstein. Sure, thank you. Just very briefly, I would 
suspect that the Mexicans would underscore that they are 
emphasizing, as Roberta did, both pillars two and four, and 
that USAID is being responsive to those requests. As I note in 
my statement, we are about to double the number of states that 
we are working in. We are currently working in 11; we are 
looking to work in 20 states, training prosecutors, judges, 
public defenders, and other operators in the judicial system.
    I think they would also probably suggest that they are 
pleased with our efforts to work more closely with Mexican 
organizations. This is something we are trying to do globally 
as an agency, is channel more funds through local 
organizations, rely less on United States contractors, and we 
are starting to do that with Mexican NGOs, Mexican human rights 
groups.
    I anticipate also that they would be pleased with our 
responsiveness to their desire to learn more from various U.S. 
cities, particularly Los Angeles. There is real interest in 
Mexico, in Central America, and elsewhere about the success 
that L.A. has had in reducing gang activity, and we have been 
able to send the deputy mayor from L.A. to Mexico last week and 
he has been able to share some of the lessons they have 
learned.
    So I would hope that the Mexicans would recognize our 
responsiveness to their needs and their priorities.
    Thank you.
    Senator Kaine. Another question if I could, Mr. Chair. This 
is a general question that I would like to hear the perspective 
of panel two on as well. The Mexican economic track record has 
had some pretty spectacular success in recent years. Secretary 
Jacobson talked a bit about it. Whether you measure it by 
trade, the openness of trade, the growth of the middle class, 
the purchase of consumer goods, the whole series of things that 
are happening are pretty positive.
    I would assume that kind of as you think about that pillar 
four, the resilience of communities, increasing economic 
standard of life both creates resources to deal with problems, 
but also shows young people that they have a path to success 
that is not involving criminal activity, and that also may even 
create sort of a more demanding populace. My sense is sort of 
the more economically positive people have it, the more they 
want to demand a government and a set of civil institutions 
that sort of protect the success that we are achieving.
    If you could talk a little bit about that, that economic 
arc that Mexico is on and how it bears upon this resilient 
communities pillar four in the Merida Initiative, that would be 
great.
    Ms. Jacobson. I think you have got it exactly right, 
Senator. I think that the virtuous circle that we are sort of 
all trying to reinforce with the community programs and with 
the economic development has a huge impact on what happens on 
fighting transnational crime. We have seen that everyplace. 
Those two things are inextricably linked. If there is no 
optimistic future for young people, if they don't have access 
to education, if there is not economic growth, then the lure of 
the criminal organizations is just that much greater. They may 
not go away completely during good economic times, but they 
certainly are easier to encourage kids to stay away from.
    But I also think that we have learned that constraints to 
growth become much, much more difficult when you have a severe 
security situation. We know that investors look at the security 
situation. We know that companies have to build into their 
bottom line what they have to pay for private security if the 
state is not providing it.
    So I think one of the things that was not as well 
understood perhaps at the beginning of our engagement with 
Mexico, although we certainly learned it, as Bill underscored, 
in Colombia, is the engagement of the private sector in this 
battle. It cannot be just the government's responsibility and 
it cannot even be just civil society or NGOs. It has to be with 
the private sector, and I think AID has done a lot in that 
regard.
    But the other thing that I think has happened in Mexico is 
a real understanding of the next set of economic reforms that 
really does bring Mexico into the kinds of growth rates that 
are going to make a big dent in their social structure and the 
ability to fight transnational crime. We have all been saying 
to some extent in the 20 years since NAFTA was passed and 
implemented that the other part of the economic reforms did not 
all get made. Free trade agreements only take you so far. Now 
this government in only 6 months in office has already passed 
labor reform. They have passed education reform. They are 
focusing now on fiscal reform, on financial reform, on energy 
reform. Those are the kinds of things that are going to sort of 
lay down those roots in economic growth and provide, I think, 
the next great leap forward for the Mexican system, and also 
are really an important part of fighting crime and improving 
the security situation.
    Senator Kaine. Thank you very much, Mr. Chairman.
    Senator Udall. Thank you. Thank you for those answers. One 
of the most important next steps in the United States-Mexico 
security cooperation is the transition to an adversarial system 
in Mexico. I remember when I was State attorney general and we 
used to share back and forth with Mexico trips to visit with 
law enforcement officials across the border. They were very 
interested in our adversarial system, and, in fact, I think I 
loaned one of my prosecutors to them for a couple of months 
because they wanted to learn more about the system.
    We know it is going to be very complicated, requiring 
judges, lawyers, police officers, detention officials, and it 
is going to take some real political will to do this. I was 
wondering, during President Obama's visit with President Pena 
Nieto was this issue discussed? Do you believe that Mexico's 
plans to accelerate judicial reforms are on track? And if not, 
what needs to be done to get them back on track?
    Ms. Jacobson. I am just going to start that off real 
quickly, to say that I thank you for your recollection, Mr. 
Chairman, of loaning a prosecutor to Mexico. The Western States 
in particular and the Western attorneys general have been just 
stalwart supporters of that transition in Mexico. Without the 
resources of State prosecutors going to Mexico, helping to 
train folks, working with the bar association in Mexico, 
working with law schools, none of this could be done.
    But the Mexicans have given themselves a pretty short 
window. This constitutional reform passed in 2008. It is 
supposed to be completed by 2016. They do have a long way to 
go. So I think President Pena Nieto's acceleration of that 
process is most welcome.
    He did talk about it with the President when President 
Obama was in Mexico. He talked about, in particular, what he 
had seen happen in the state of Mexico when he was governor and 
the way in which, as Mark said, the way in which it really did 
open the system up; open it up for scrutiny by the public in a 
much more transparent way and reduce pretrial detention, and 
also keep many cases from ever getting to court because they 
could be resolved through alternate means.
    So I do think there is a lot of work still to be done. But 
we are pretty optimistic that this is a high priority.
    Mr. Brownfield. We will do a tag team here, Mr. Chairman. I 
reinforce and concur with everything Roberta has said, 
including, by the way--and this has happened since you left 
your prosecutorial responsibilities--within the last 3 months I 
have signed an MOU with the current attorney general of the 
State of New Mexico formalizing this relationship and your 
State's willingness to provide prosecutors for specific 
training and specific programs in Mexico.
    We have in essence, ``we'' the United States Government, 
have divided responsibility for support on this particular 
issue, with my side, State INL, managing the Federal Government 
side of this reform and Mark's people handling the State and 
local side, because, to remind us all, Mexico, like the United 
States of America, is a federal system. Ninety percent of all 
courts, cases, and law enforcement is performed at the state 
and local level.
    We have provided some degree of training through the 
Department of Justice to 8,500 prosecutors in the Federal 
Attorney General's Office. We have worked with the Government 
of Mexico to establish basic law enforcement and police 
standards that would be applicable throughout the entire 
country. And as the new government, now not so new government, 
has organized its own efforts into its five regions where it 
attempts to do reforms and support for its national security 
policy, we have tracked onto those regions, placing an adviser 
and working a specific regional strategy for each one.
    I am actually optimistic on this, Mr. Chairman. I am not 
saying we won't hit some bumps in this road to 2016, but I am 
saying right now you are hearing from a fairly optimistic 
person.
    Dr. Feierstein, over to you.
    Mr. Feierstein. Thank you. I think I would share the 
optimism as well, but just underscore what a daunting task it 
is. Mexico is really undergoing a judicial revolution to make 
this transition to the accusatorial system in just a matter of 
a few years. It requires a whole range of training. I noted the 
training for judges, prosecutors, public defenders that we are 
doing. We have also been sponsoring judicial exchanges. A 
number of judges have come to the United States to see how the 
U.S. system operates. We have been working with law schools to 
help them to reform their curricula because it means that 
students who are now about to enter the legal field have to 
learn a whole new curriculum.
    It requires as well support for NGOs to help them to 
educate the public. The public needs to understand what the 
system is about, what their rights are. I think initially there 
was some skepticism both among the public and among judges and 
lawyers. We think that is changing as people start to see how 
the system operates. They are seeing some of the early results. 
I noted that we are seeing that cases are being resolved more 
quickly, acquittal rates are coming down. As long as those 
results continue, I think we will continue to see strong 
support from the Mexico public and from those operating in the 
judicial system.
    Having said that, this is, as Bill Brownfield noted, a 
Federal system. There are some states that are moving very 
quickly. Others are moving more slowly. And we are prepared to 
provide the support to those states that have the political 
will and putting in the resources necessary to make this 
transition.
    Thank you.
    Senator Udall. So it sounds to me like they are making 
significant progress, but some states are going slower. Are 
they on track to do it all in 2016 or are you going to have a 
few laggard states? What is your judgment there, Mark or 
Roberta?
    Mr. Feierstein. I hate to make predictions, especially in 
the context of a hearing like this. But certainly there is a 
constitutionally imposed deadline that all the states are 
required to meet. This new administration, the Pena 
administration, is clearly committed to help the states reach 
that goal by 2016. And we are prepared to provide whatever 
support we can to help them achieve that.
    Senator Udall. Great. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. Thank 
you for this hearing.
    I am sorry that I missed some of your testimony, but I read 
most of it. One of the things I was struck by in reading the 
testimony is that a lot of our assessment of success here, a 
lot of the measurements that we use, are couched in terms of 
the number of dollars spent, the number of individuals that we 
have trained, journalists, prosecutors, human rights advocates, 
officers.
    So I wanted to ask a deeper question about how we assess 
performance of the Merida Initiative as it exists today, but 
the larger security relationship going forward. We have other 
metrics available to us. You have the simple one of levels of 
violent crime. But I guess my question is, As members of this 
committee what should be the measurements--and I will put the 
question first to you, Secretary Jacobson--should be the 
measurements that we look to?
    Is measurement of violent crime enough? And if not, what do 
we look to in between just the mere measurements of dollars and 
personnel trained and then that final number, which is the 
number of Mexicans that are victims of the violent crime that 
we are trying to stop? Is there something in between that we 
can look to to try to judge the month to month, year to year, 
success of this relationship?
    Ms. Jacobson. Thank you, Senator, and thanks for being 
here. I think you ask a really important question and frankly 
one which I with my partners here have been wrestling since the 
beginning of the initiative, because we know that you cannot 
start down this road without knowing what success looks like 
and what you are going to look at as measurements.
    I think, in fact, there are things that we need to look at 
in between. Some of them are good measures, some of them are 
partial at best, some of them have to be taken sort of over 
time to see trend lines. I will let Bill and Mark talk a little 
bit about what each of their particular programs are using.
    But there are measures that we have used in this region for 
a long time in looking at drug cartels and drug trafficking, 
things like seizures of drugs. But seizures of drugs are at 
best a very imperfect measure. They either mean that the cops 
are doing a much better job and they are seizing a lot more 
drugs or they mean that a lot more drugs are going through a 
territory in the first place.
    So what you want to do is you want to put together a lot of 
different measures. You also want to know--and I think Mark and 
I have talked about this particularly as we look at communities 
and their resilience--how do people feel about their 
institutions? Do they have more confidence in them? Is the 
system stronger and more responsive to them?
    Some of this should be done in public opinion surveys over 
time, but probably takes a longer amount of time for both 
people to feel more confident in the system, as Mark was 
referring to it, and also to have those results kind of 
translate back into the community.
    But we know that some of it is also a question of how many 
cases are actually prosecuted and taken all the way to trial, 
what is the conviction rate, how many cases don't ever come to 
trial because they are settled? So depending on the program, we 
have different kinds of metrics. When we are doing equipment, 
whether it is nonintrusive inspection equipment or helicopters, 
that may be a lot easier to measure. Are they using them for 
what they were designed for? Bill talked about how much has 
been seized in programs that are designed to look at cargo or 
travelers and see whether contraband is being brought in of any 
sort--weapons, guns, money.
    So there are lots of different measures. We have developed 
metrics with the Mexican Government for individual programs. 
But I think we do owe both you all and the taxpayers, as well 
as our colleagues and the Mexicans, interim looks at how we are 
doing. And we have done that with GAO and others as we have 
gone along, but still a work I progress.
    Mr. Brownfield. If I could just add a little bit to that, 
Senator Murphy. Your question is right on the mark and I would 
submit that what has happened, which is logical and coherent 
and inevitably happens in this sort of program, is the first 2 
or 3 years are metrics or what I would call inputs, which is to 
say what have we delivered? How many aircraft, how many 
vehicles, how much equipment? Or for that matter, how many 
individuals have been trained? And you hold us pretty intensely 
to a standard of wanting to see material after you have 
appropriated the funds getting down there where it can do some 
good.
    We are now in year 6 of this joint shared effort between 
the United States and Mexico, and the metrics obviously have to 
shift to another level. That is what I guess I would call 
outputs. You put your finger on one: What is the homicide rate? 
What is the violence rate? That would obviously be a pretty 
clear indication that we are having an impact.
    There are others, some of which Roberta has mentioned: 
conviction rates or numbers of arrests, which would tell you 
the police are actually doing their job or the prosecutors are 
actually doing their job. There is seizures and interdictions, 
which would suggest those who are manning the borders or 
monitoring the highways are doing their job. There is a 
numerical issue in terms of how many police are on the street 
today, federal as well as state or local? Or if corruption is 
an issue, how many corrupt officials have been removed? Just 
give us the number. Is it 10? is it 1,000? is it 10,000? That 
is a useful number to know.
    In the case of financial crime and money-laundering, we can 
measure how much has been taken out of the system. In other 
words, we do have a series of metrics which should make 
logical, coherent sense to everyone, which answers the 
question, What is the impact that we are getting from the $1.6 
billion that has so far been appropriated by Congress to 
support the Merida Initiative in terms of the funds that I 
manage?
    Dr. Feierstein.
    Senator Murphy. Dr. Feierstein, the question of inputs and 
outputs is not one that USAID is unfamiliar with. I know you 
deal with this question all the time.
    Mr. Feierstein. We are very much familiar with it. Thank 
you very much. I appreciate the question.
    First in the area of judicial reform, we are looking at 
five particular metrics. They are: are cases being resolved? 
Are more cases being resolved? How fast are they being 
resolved? Are acquittal rates moving lower? Are sentences 
tougher for serious crimes? And is pretrial detention coming 
down?
    To the extent that we can move, help move those five 
metrics, in the states undergoing the reform, we would consider 
that a success.
    In the cities where we are helping to reduce crime and 
violence and supporting activities, for example, with at-risk 
youth, we have a program with Vanderbilt--and we also have one 
with Vanderbilt University in Central America--where we are 
able to look at the impact of our programs in the cities, in 
the communities where we are operating, and also look at 
comparable communities, so we get a sense of the impact of our 
programs, are they working to reduce crime, are they not, and 
if they are working which of the activities are most successful 
and leading to those reductions.
    The goal of our programs--the value of USAID's program 
actually is not about the size of the budget. What we can put 
into Mexico is quite modest and, as I noted in my statement, 
the Mexicans are prepared, the Mexican Government is prepared, 
to invest $9 billion in prevention. What we are trying to do is 
help them to develop certain models that they can then take to 
scale. We are confident with Vanderbilt University we will be 
able to figure out what is working, what is not working, and 
what can the Mexicans then take the scale.
    Thank you.
    Senator Murphy. Thank you, Mr. Chairman.
    Senator Udall. Senator Kaine.
    Senator Kaine. The one last question that I was going to 
ask this panel is just--and it has already been alluded to 
really--is the USAID experience and all of your experience in 
Colombia--you know, Colombia was synonymous with violent crime, 
horrible security challenge. ``Medellin'' called up all these 
images. I am not sure we have told the story to the American 
public as much as we possibly should, not that there aren't 
still challenges in Colombia, but the significant investment 
that we made through Plan Colombia has been accompanied with 
some really dramatic reductions in crime and increases in 
economic activity and political stability.
    So I am sort of curious, since USAID was so much on the 
front lines of Plan Colombia, what are lessons to extract from 
that success, acknowledging the different culture that had been 
mentioned by Secretary Brownfield earlier. But what are some of 
the lessons to extract from that success as we go forward into 
continuing the Merida Initiative?
    Mr. Feierstein. Thank you, Senator. It is a great question 
and I will start off and then defer to my colleagues, who know 
Colombia very well as well.
    I think first in Colombia you had real political will. The 
entire society came together, all political parties, civil 
society, the private sector, and understood that they had to 
make a concerted effort to defeat drug trafficking, to defeat 
the guerrillas, and it required a whole range of activities to 
do that.
    Second, they were prepared to invest their own resources. 
It is true the U.S. Government invested a lot, but the 
Colombians themselves invested millions and millions. President 
Uribe passed a security tax. Beyond the efforts at the national 
level in Colombia, I think we have also seen some very 
innovative local leadership. You mentioned Medellin. They have 
had a terrific series of mayors, Bogota as well, and they have 
been able to introduce some pretty innovative ways to reduce 
crime and violence, focusing on creating appropriate urban 
spaces, investing in at-risk youth, and a whole range of other 
activities.
    The Mexicans and others have taken real interest in the 
Colombian experience. In fact, we have been able to sponsor 
some exchanges. We had some officials from Medellin in Mexico. 
So I think there is an awful lot to learn from Colombia.
    Now we are trying to institutionalize that relationship 
through what we call trilevel cooperation, basically working 
with Colombia and third countries, and Mexico is among those 
countries who we help to work with the Colombians.
    Thank you.
    Mr. Brownfield. We will go down in reverse order for this 
answer.
    Senator--and I will offer you my six lessons learned as I 
attempted near the end of my tenure in Colombia to answer just 
that question: What have we learned here that could be 
applicable elsewhere? Mark has already alluded to several of 
them.
    One, there must be a degree of consensus, both in the 
country and between that country's government and us, as to 
what are we attempting to accomplish here? What is the 
objective? If you don't have that consensus, if you don't have 
that agreement, you will eventually fail. It is just 
inevitable.
    Second, you need to identify your partners. Maybe there are 
no partners, but there are usually others in the international 
community, whether governments or international organizations 
or international financial institutions or NGOs. Who else is 
interested in the issue and willing to work to address those 
threats and problems?
    Third, you must think in I would call it almost sequential 
or a transitional mode. In other words, what you might be doing 
on day one is very certainly going to be different from what 
you will be doing at the end of 5 years or 6 years. You have 
got to have a concept. In Colombia the concept was heavy on 
security at the start and then ratchet down on security and 
begin to build up on the developmental side, operating on the 
assumption that you cannot do a lot of developmental work if 
your people are just going to get whacked when they are out in 
the field because there is no security. Every country is 
different. Figure what the transition is.
    Fourth, some degree of flexibility. There is no plan ever 
in the history of the human race that was so perfect that it 
required no adjustment, no change, no modification in the 
course of its development. We learned that lesson many times 
the hard way in Colombia and we will undoubtedly have to apply 
that lesson in any other country in the world.
    Fifth, assume at some point, because you, the United States 
Congress, will force us to do it, that we must eventually 
nationalize. If you continue to see that it is the United 
States Government doing all the program, spending all the money 
and doing all of the operations, eventually you will say: Are 
we ever going to see an end to this?
    That gets me to the sixth and final lesson, and that is 
have some sense of what the end game is. If end game is 
perfection, we will never get there, at least not--well not in 
this world. We have to have some sense, ideally some consensus, 
as to what we are prepared to say is the point where we have 
successfully reached a sustainable relationship that does not 
require a continued substantial investment of the taxpayers' 
money.
    Dr. J.
    Ms. Jacobson. The only short sentence I would add to that 
is I do think that the American taxpayers should be pleased 
with the fact--and Mark and Bill have both alluded to it--that 
the assistance that we provided to Colombia over these many 
years in some ways is having really a multiplier effect or is 
being repaid in some respects by the extent to which Colombians 
are now able the help their neighbors on some of the things 
that they learned and did right and only they can really convey 
much more effectively than we can, whether it is in Mexico, 
Central America, or the Caribbean.
    Senator Udall. Thank you, Senator Kaine.
    As predicted, our 3 o'clock vote has gone off and we are 
almost halfway through it at this point. So I just wanted to 
thank all three of you for your service. We very much 
appreciate your attendance here today. I think you gave 
excellent, excellent testimony and I think really taught us a 
lot about what is happening down there.
    This panel will be excused and the second panel--we are 
expecting to be back here about 4 o'clock is what we are 
predicting at this point. So thank you very much and we will be 
in recess until 4 p.m.

[Recess from 3:07 p.m. to 4:11 p.m.]

    Senator Udall. Welcome. Thank you very much for being here 
today. We really appreciate it. We are very glad you 
accommodated us on the vote. As you know, we interrupted panel 
one and panel two with a vote. So thank you for being here.
    What we are going to do is do your--I have already done an 
opening statement. If Senator Kaine wants to do a brief one at 
the beginning here, we can do that. But do your statements and 
keep them to 5 minutes, and then have questions and discussion. 
Hopefully, we are going to get you out of here about 5 o'clock. 
So that is the plan.
    Senator Kaine.
    Senator Kaine. Just real quick, Mr. Chair. I am thrilled to 
have the panel here. I came out and apologized to them all, 
because I have the best excused absence ever at 4:30, which is 
I have a meeting with the Mexican Ambassador to the United 
States. So I think, given the topic, I wanted to tell you, too, 
as well. I want to hear the opening statements, then I will 
have to duck. But these are great witnesses and I am sure they 
are going to have good things for us to hear.
    Senator Udall. Well, thank you very much. Being on the 
Western Hemisphere Committee, that is right along the line of 
duty there. So it is great to hear that.
    Why don't we start, Dr. O'Neil, with you and then we will 
move down with Mr. Steinberg and then Dr. Wood.
    Thank you. Please proceed.

 STATEMENT OF DR. SHANNON K. O'NEIL, PH.D., SENIOR FELLOW FOR 
LATIN AMERICA STUDIES, COUNCIL ON FOREIGN RELATIONS, NEW YORK, 
                               NY

    Dr. O'Neil. Thank you very much, Chairman Udall, Senator 
Kaine. Thank you so much for this opportunity to testify today 
on this important issue of our bilateral security relationship 
with Mexico.
    The United States-Mexico security cooperation, led by the 
Merida Initiative, is vital and must continue. Building on the 
lessons of the past 5 years, the United States should work with 
Mexico to implement the programs envisioned in the current 
framework, and in particular prioritizing Mexico's judicial 
reform, its state and local level training and initiatives, and 
modernizing the United States-Mexico border.
    During his campaign, Enrique Pena Nieto promised to shift 
the country's current security strategy away from combating 
drug trafficking toward reducing violence. But during his first 
6 months, we have seen more continuity than change in this 
strategy. His plan maintains a role for the armed forces and 
calls for creating a firmer legal basis for the military's 
public security role. He has said that he will continue to push 
through the judicial reform that was begun in 2008. He has also 
promised to build on community-based programs such as Todos 
Somos Juarez in Ciudad Juarez, expanding and prioritizing 
broad-based crime prevention efforts.
    Some strategic changes are planned. The government has 
announced that it will create a new national gendarmerie, a 
40,000-person force. It has also begun the process of 
centralizing control and command of the security apparatus 
under the Ministry of the Interior, beginning with folding in 
the autonomous federal police force back under this wing. These 
centralizing tendencies will also affect the United States-
Mexico cooperation, requiring all joint programs to be 
channeled through this ministry.
    The government has also announced that it will consolidate 
the over 2,000 local police forces into 31 state-level 
commands.
    It is still somewhat unclear what these announcements will 
mean in reality. For instance, many question whether the 
gendarmerie will ever come to pass, or whether Pena Nieto will 
fare better than President Calderon in his efforts to replace 
the local police forces with state-level forces.
    For the United States, these announcements will change how 
law enforcement and other agencies work with Mexico on security 
issues. But this most recent articulation by the Mexican 
Government should not be seen as the last or permanent word on 
United States-Mexico security cooperation. Instead, it should 
be considered as part of an ongoing discussion and evolution in 
the relationship.
    So, recognizing that, the United States should prioritize 
three areas. The first is judicial reform, as long-term 
sustainable security will only exist in Mexico when it has a 
strong civilian-based rule of law and is able to take on and 
punish all types of criminal activity. In 2008 Mexico passed a 
wide-ranging package of constitutional and legislative reforms 
to transform the justice system, introducing oral trials, the 
presumption of innocence, an adequate defense, strengthening 
due process, and establishing alternative arbitration 
mechanisms and plea bargaining.
    All told, these reforms should increase transparency and 
accountability and improve justice more generally.
    With President Pena Nieto's backing, United States 
resources can help achieve this transformation, creating or 
remodeling courtrooms, training or retraining Mexico's over 
40,000 active lawyers and judges, and revamping law school 
courses and materials to prepare the next generation of justice 
officials.
    Second, U.S. security should continue to move beyond the 
federal level, focusing on state and local challenges. This 
support should involve not only expanding training and 
professionalization of local police, but should move beyond the 
classroom to help develop systems of standards, police 
procedures, evaluation mechanisms. As most of Mexico's federal 
or local police forces, they lack elements as basic as manuals 
that lay out standard practices.
    Finally, the United States should prioritize the 
modernization of the United States-Mexico border. This means 
expanding roads, bridges, express lanes for trusted travelers, 
as well as increase the number of U.S. Customs and other 
officials and staff at the main ports of entry. These 
investments are vital for security, helping keep out illicit 
goods and people. But upgrading the border has the added 
benefit of facilitating legal trade, which supports U.S. 
companies and an estimated 6 million U.S. jobs.
    These outlined initiatives, many already part of the Merida 
framework, have a greater chance of reducing violence in Mexico 
as they will help strengthen police forces, court systems, and 
local communities. In the end, Mexico's security will depend on 
the actions and decisions of Mexico. But there is much the 
United States can do to help or hinder the process, and a 
justice and locally based approach to United States security 
assistance will help Mexico establish more effective and 
longlasting tools for combating crime and violence.
    Thank you.
    [The prepared statement of Dr. O'Neil follows:]

              Prepared Statement of Dr. Shannon K. O'Neil

    Chairman Udall, Ranking Member McCain, and distinguished members of 
the Subcommittee on Western Hemisphere and Global Narcotics Affairs, 
thank you for the opportunity to testify today on the important issue 
of our bilateral security relationship with Mexico. Given our deep 
economic, personal, and community ties, Mexico's safety and security is 
vital to our own. A strong and safe Mexico will have positive benefits 
for the United States, while a dangerous Mexico will have repercussions 
far beyond the southern U.S. border.
              refocusing u.s.-mexico security cooperation
    U.S.-Mexico security cooperation, led by the Merida Initiative, is 
vital and must continue. But Mexico's political landscape has changed 
under the Enrique Pena Nieto government, and the United States must 
adjust its strategy and support accordingly. Building on the lessons of 
the past 5 years, the United States should work with Mexico to 
implement the nonmilitary programs envisioned in the current Merida 
framework, in particular supporting and prioritizing Mexico's ongoing 
judicial reform, training police officers at the state and local 
levels, investing in local community and youth-oriented programs, and 
modernizing the U.S.-Mexico border.
                 the merida initiative after five years
    The Merida Initiative was launched in 2007 under the George W. Bush 
administration, which promised $1.4 billion over 3 years to ``support 
Mexico's law enforcement in the fight against organized crime.'' The 
Obama administration revised and expanded Merida's mission, moving from 
a heavy emphasis on military equipment to a more comprehensive 
bilateral strategy that seeks to reduce the role and influence of 
organized crime. The initiative now encompasses four priorities (called 
pillars): disrupting the operational capacity of organized crime, 
institutionalizing the rule of law, creating a 21st-century border to 
speed the flow of legal commerce and stop that of illegal goods, and 
building strong and resilient communities that can stand up to criminal 
intrusions. The main problem today is not Merida's design but its 
uneven implementation, with the gains in some areas offset by minimal 
progress in others.
    Together Mexico and the United States have been most successful in 
removing drug kingpins. In the last few years Mexican authorities have 
captured or killed the majority of the most-wanted drug traffickers and 
substantially disrupted the operations of Mexico's best-known criminal 
networks. Many of these high-profile arrests resulted from bilateral 
intelligence and operational cooperation.
    Advances have been made as well in strengthening the rule of law, 
most notably the expansion and professionalization of the federal 
police. But progress has been slight beyond this particular law 
enforcement body, which represents just 10 percent of Mexico's police 
forces. The United States has also provided support for justice reform. 
Though a set of 2008 constitutional and legislative reforms set in 
motion a fundamental transformation of Mexico's court systems, the 
implementation of these changes has been slow, so much so that many 
worry the shift will not occur by the 2016 deadline, leaving Mexico's 
judicial future uncertain. On a practical level, rising crime and 
violence have exposed the weak capacity of the current justice system. 
With fewer than 20 percent of homicides ending in convictions, impunity 
reigns, providing a weak legal deterrent to a life of crime.
    Initiatives to modernize the border and build resilient communities 
(pillars three and four of the Merida Initiative) are further behind. 
Though some innovative border management programs, such as the Customs 
Trade Partnership Against Terrorism--which helps trusted businesses 
avoid extensive border checks--have improved efficiency, the overall 
tenor of U.S. policy has been to increase barriers, slowing flows of 
legal commerce. Financially, investment in border crossings and 
infrastructure has not matched the exponential increase in trade 
crossing the border each year. Investment has lagged not only for new 
construction, but also for basic maintenance on existing 
infrastructure, leading to overwhelmed and at times downright dangerous 
facilities (the San Ysidro border crossing roof collapsed in 2011, 
injuring 17 people). Stressed infrastructure has also led to traffic 
jams lasting up to 8 hours, and has cost billions of dollars in trade 
losses, without drastically discouraging or disrupting illegal flows.
    The building of ``resilient communities,'' too, has been limited. 
The pillar's ambitious objectives of addressing the underlying 
socioeconomic and community factors behind rising crime rates have not 
yet moved beyond pilot programs in Ciudad Jurez and a few other places.
    Finally, though talking often of coresponsibility in the drug war, 
the United States has done little to address the domestic factors that 
affect Mexico's security. The illegal flow of weapons and money 
southward continues unabated, and U.S. drug consumption remains high. 
(The 2011 National Survey on Drug Use and Health found that just under 
9 percent of Americans over the age of 12 used illegal drugs in the 
past month.)
                    changing realities on the ground
    As the U.S.-Mexico security cooperation strategy has evolved, so, 
too, have the realities on the ground. The most drastic shift is the 
rise in violence. When the Merida Initiative was signed in 2007, there 
were just over 2,000 drug-related homicides annually; by 2012, the 
number escalated to more than 12,000. Violence also spread from roughly 
50 municipalities in 2007 (mostly along the border and in Sinaloa) to 
some 240 municipalities throughout Mexico in 2011, including the once-
safe industrial center of Monterrey and cities such as Acapulco, Nuevo 
Laredo, and Torreon.
    This increase in violence is not just the direct result of drug 
trafficking. Criminal organizations have diversified into numerous 
illicit businesses, including kidnapping, robbery, human trafficking, 
extortion, and retail drug sales, and as a result prey more directly on 
the local population. One recent survey found that over 40 percent of 
Mexicans reported that they or a family member had been a victim of a 
crime in the past year.
    Mexico's politics have also changed. On December 1, 2012, Enrique 
Pena Nieto became President, bringing the Institutional Revolutionary 
Party's (PRI) back into Los Pinos, Mexico's White House. During his 
campaign, he promised to shift the country's current security strategy 
away from combating drug trafficking toward reducing violence. 
Throughout his first 6 months however he has been somewhat slow to 
define the details of his new security approach, though the general 
announcements reflect more continuity than change. Pena Nieto's 
National Development Plan maintains a role for the armed forces, and in 
fact calls for creating a firmer legal basis for the military's public 
security role. He has said he will continue to push through the 
judicial reform begun in 2008. He has also promised to build on 
programs such as Todos Somos Juarez, expanding and prioritizing broad-
based crime prevention efforts.
    Some strategic changes are planned. The government has announced it 
will create a new national gendarmerie, a 40,000 member force. It has 
also begun the process of centralizing control and command of the 
security apparatus under the Ministry of the Interior, beginning with 
folding the autonomous Federal Police back under its wing. These 
centripetal tendencies also will affect U.S.-Mexico cooperation, 
requiring joint programs to be channeled through this same Ministry, 
ending the decentralized engagement between U.S. and Mexican agencies 
and agents that occurred during the Calderon administration. The Pena 
Nieto government has also announced it will consolidate the roughly 
2,000 local police forces into 31 state-level commands--something the 
Calderon administration tried but failed to do.
    It is still somewhat unclear what these announcements will mean in 
reality and on the ground. For instance Mexican officials have said 
that members of the new gendarmerie will march in this year's September 
Independence Day parade; yet at the same time, the force was not 
mentioned in the government's recently released National Development 
Plan, nor adequately provided for in last year's federal budget, 
leading many to question whether it will ever come to pass. There are 
questions, too, about the centralization of the local police into 
state-level forces, as many cities and states may push back on 
relinquishing control of their security forces.
             u.s.-mexico security cooperation going forward
    These announced changes will lead to some shifts in how U.S. law 
enforcement and other agencies work with Mexico on security issues. 
Within the United States there are worries that these changes will 
stifle cooperation, and in particular the flow of information--
especially sensitive intelligence--that has been important in many of 
the successful operations and takedowns of recent years. But the most 
recent articulation by the Mexican Government should not be seen as the 
last or permanent word on the future of U.S.-Mexico security 
cooperation. Instead, it should be considered as part of the ongoing 
discussion and evolution in the relationship that has happened, that is 
happening, and that will continue to happen in the coming months and 
years. The challenge for the United States is to work with the new 
Mexican administration and legislative branch in ways that are both 
congruent with their objectives, and that also enable both countries to 
push past the current limits on security cooperation and 
implementation. As the consequences of the changes in the operational 
relationship become clear, there will likely be both the desire and the 
opportunity to adapt bilateral and operational strategies, and the 
United States should be prepared to take advantage of these openings to 
focus and refocus bilateral efforts.
    U.S. assistance will undoubtedly remain a small portion of the 
overall security spending in Mexico, as it should be. But with the 
funds that the United States does dedicate, it should prioritize 
civilian (versus military) law enforcement institutions, and focus on 
four areas. The first is judicial reform, as long-term sustainable 
security will only exist when Mexico has a strong civilian-based rule 
of law, and is able to take on and punish all types of criminal 
activity.
    In 2008, Mexico passed a wide-ranging package of constitutional and 
legislative reforms that, if and when enacted, will fundamentally 
transform Mexico's judicial system. The new legal framework introduces 
oral trials, the presumption of innocence, access to an adequate 
defense, and strengthens due process. It also establishes alternative 
arbitration and plea bargaining options to help streamline the legal 
process, helping prosecutors to prioritize their time and resources 
more strategically. It bolsters investigation and prosecution tools 
against organized crime, making it easier to tap phones and to hold 
suspects, effectively suspending habeas corpus for especially serious 
crimes.
    All told, the reforms promise to change the basic nature of the 
system and the role of its main actors--judges, prosecutors, police, 
defense attorneys, defendants, and victims--in ways that should 
increase transparency and accountability and improve justice more 
generally. But, with the deadline for the reform's implementation set 
for 2016, not enough has been done yet to make this design a reality. 
At the federal level the government still needs to pass unified penal 
and criminal procedure codes, and a majority of states still have huge 
hurdles to climb. In the roughly one-third of Mexico's states that have 
implemented at least in part the new judicial framework, initial 
studies show the new systems are faster in resolving cases, better at 
prioritizing serious crimes, able to limit pretrial detentions, and 
lead to tougher sentences for the convicted. With President Pena 
Nieto's backing, U.S. resources can help Mexico achieve this 
transformation, creating or remodeling courtrooms, training or 
retraining Mexico's roughly 40,000 active lawyers and thousands of 
judges, and revamping law school courses and materials to prepare the 
next generation of judicial system officials.
    Second, U.S. security support should continue to move beyond the 
federal level, focusing U.S. resources and programs in Mexico on state 
and local efforts, as this is where violence and insecurity are most 
concentrated and devastating. A shift to the local level would also 
enable policymakers and U.S.-supported programs to recognize and 
address the varying nature of the violence. In cities such as Ciudad 
Juarez, local gangs today are perhaps as threatening as transnational 
drug cartels.
    This more local focus will involve expanding the training and 
professionalization courses available to state and local law 
enforcement. It should move beyond classes to greater support for the 
development of systems of standards, police procedures, and evaluation 
mechanisms for Mexico's local law enforcement, as most of Mexico's 
police forces lack elements as basic as manuals that lay out standard 
practices. Drawing on known national and international accrediting 
agencies and programs such as the Commission on Accreditation for Law 
Enforcement Agencies (CALEA), the International Association of 
Directors of Law Enforcement Standards and Training, and the Commission 
on Peace Officer Standards and Training, the United States can be 
useful in helping Mexico define and set these guidelines, to which 
officers can then be held accountable.
    In addition, these joint U.S. and Mexican local efforts should 
concentrate on realizing the so-far-neglected fourth pillar of the 
Merida Initiative, which calls for building resilient communities. 
Mexico has seen many instances of innovation in places hit hard by 
violence, including the business community's involvement in creating a 
new state police force in Monterrey, and the security roundtable in 
Ciudad Juarez that brings together civil society leaders, 
businessowners, political officials, and local, state, and federal law 
enforcement to address the security threat. Meeting often on a weekly 
basis, these interchanges have helped to slowly build the trust so 
lacking in many of these communities, and to cultivate a close working 
relationship between law enforcement officers and those they protect--
something largely missing in Mexico, yet vital to a longer term peace 
and safety.
    In practice, this reorientation will mean more funding for the U.S. 
Agency for International Development's (USAID) community projects and 
youth programs, as well as INL's training of state and municipal police 
(as opposed to just federal-level officers).
    Finally, the United States should prioritize the modernization of 
the U.S.-Mexico border. This means expanding its roads, bridges, and 
FAST lanes (express lanes for trusted drivers), as well as increasing 
the number of U.S. customs officers, agricultural specialists, and 
support staff that man the ports of entry. The estimated cost of these 
necessary investments would also be relatively small, with the U.S. 
Customs and Border Patrol estimating the need for some $6 billion over 
the next decade. These investments are vital for security, helping to 
keep out illicit goods and people. Upgrading the border has an added 
benefit, as it will facilitate legal trade, where consultants estimate 
losses in the tens of billions of dollars and hundreds of thousands of 
jobs, due to long border wait times and distances between ports of 
entry.
    The outlined initiatives--many already part of the Merida 
framework--have a greater chance of reducing violence in Mexico, as 
they will help strengthen police forces, court systems, and local 
communities. The border improvements, moreover, will benefit both the 
U.S. and Mexican economies, which can have indirect positive effects by 
providing greater legal opportunities to young people. In the end, 
Mexico's security will depend on the actions and decisions of Mexico. 
But there is much the United States can do to help or hinder the 
process. A transition to a justice and a more local level and 
community-based approach to U.S. security assistance will help Mexico 
establish more effective and long-lasting tools for combating crime and 
violence.

    Senator Udall. Thank you, Dr. O'Neil.
    Let us move to Mr. Steinberg now.

    STATEMENT OF NIK STEINBERG, SENIOR RESEARCHER, AMERICAS 
           DIVISION, HUMAN RIGHTS WATCH, NEW YORK, NY

    Mr. Steinberg. Chairman Udall, Senator Kaine, thank you for 
the opportunity to address this committee. My name is Nik 
Steinberg and I am the senior researcher in the Americans 
Division at Human Rights Watch.
    In recent years the public security strategy pursued by the 
Mexican Government has led to one of the worst human rights 
crises in Latin America in decades. In December 2006, then-
President Felipe Calderon deployed the military to confront 
Mexico's powerful and violent cartels. The strategy, which he 
called a war on drugs, led to a dramatic increase in serious 
abuses by security forces.
    For example, we documented the systematic use of torture by 
soldiers and police in five states, including the routine use 
of waterboarding, electric shocks, and beatings to obtain 
intelligence. Despite unimpeachable evidence of these and other 
abuses, Calderon spent virtually his entire Presidency 
vigorously denying that they had occurred. Instead, he falsely 
claimed that 90 percent of the victims of drug-related violence 
were criminals. While in his final year in office he 
reluctantly conceded that abuses had occurred, he continued to 
insist that they were isolated.
    For their part, prosecutors consistently neglected to carry 
out even the most basic steps to investigate these abuses. As a 
result, virtually none of the soldiers and police responsible 
were punished for their crimes.
    The strategy also failed to stop an alarming increase in 
violence and dismantle cartels. By the government's tally, more 
than 70,000 people were killed in drug violence during the 
Calderon years, and out of roughly 620,000 people who were 
detained in counternarcotics operations, nearly 500,000, 80 
percent, were released for lack of evidence or on bail.
    Since President Pena Nieto took office, we have seen a 
shift in the government's willingness to acknowledge the abuses 
that occur. In February 2013, for example, Human Rights Watch 
released a report documenting widespread abuses by Mexican 
security forces. The day we released the report, the Pena Nieto 
administration acknowledged that more than 26,000 people had 
been reported to government officials as disappeared or 
missing, a number never before made public.
    Two weeks ago I was in the Mexican state of Coahuila, which 
is across the border from Texas and is among those hardest hit 
by drug violence. The Governor there told me that more than 
1,800 people had disappeared in his state alone. Yet in only 
one case have prosecutors' efforts led to the conviction of 
those responsible.
    While I was there, Mexico's Deputy Attorney General came to 
meet with relatives of the disappeared. In a public address, he 
told them that Mexico is in the midst of a humanitarian crisis, 
to which the government's response has been grossly inadequate.
    While acknowledging these problems is a positive step, Pena 
Nieto has yet to put forward a concrete plan to address them. A 
critical question is, How will this administration's security 
strategy be different from its predecessors? Until now, Pena 
Nieto has not answered that question, nor has his government 
shown meaningful progress in prosecuting any of the hundreds of 
abuses documented by Human Rights Watch.
    As the main supplier of illicit weapons and destination for 
drugs trafficked through Mexico, the United States has a shared 
responsibility for tackling Mexico's organized crime problem. 
The United States has taken an active role in these efforts 
through the Merida Initiative, which has channeled almost $2 
billion to Mexico since 2007. Fifteen percent of that 
assistance is supposed to be conditioned annually to Mexico's 
ability to meet a set of basic human rights requirements. Yet, 
despite unequivocal evidence that Mexico has not met these 
requirements, the Obama administration has repeatedly released 
the conditioned funds.
    So what can the U.S. Government do to address this crisis? 
While it is true that Mexico faces huge challenges, the 
willingness of the Pena Nieto administration to acknowledge 
those problems and change course presents a unique opportunity. 
The United States should seize it by taking an approach that 
recognizes respecting human rights as a fundamental part of, 
rather than an obstacle to, improving public security.
    That means sending a clear message that the only way to 
dismantle Mexico's powerful cartels is not through torture or 
killings, but rather through comprehensive investigations that 
can prosecute vast, sophisticated criminal networks. That will 
require training security forces who understand that cutting 
corners on rights will only exacerbate the climate of 
lawlessness in which cartels thrive, and training prosecutors 
who have the ability and the will to investigate criminals and 
abusive security forces alike. And it requires enforcing the 
human rights conditions set by the U.S. Congress for Merida 
assistance, whose fulfillment is in the interest of both 
countries.
    I thank you for your time and look forward to answering any 
questions you may have.
    [The prepared statement of Mr. Steinberg follows:]

                  Prepared Statement of Nik Steinberg

    Chairman Udall, Ranking Member McCain, and distinguished members of 
the committee, thank you for this opportunity to address the 
Subcommittee on Western Hemisphere and Global Narcotics Affairs on the 
critically important issue of the United States-Mexico security 
relationship. My name is Nik Steinberg and I am a senior researcher in 
the Americas division at Human Rights Watch.
    My testimony today will be divided into three parts. The first will 
set out the widespread human rights violations committed by Mexican 
security forces with near complete impunity over the past 6 years of 
the ``war on drugs.'' The second will analyze the Pena Nieto 
administration's response to the human rights crisis it inherited. 
While the new administration has acknowledged the unprecedented scale 
of abuses and the shortcomings of its predecessor's overall public 
security strategy, it has demonstrated little progress in the 
investigations into those abuses or reforms to the policy that produced 
them. The third and final part will ask how the U.S. can play an active 
role in helping Mexico create a less abusive, and more effective, 
public security strategy, which is in both countries' interest.
      widespread abuses and impunity in mexico's ``war on drugs''
    In December 2006, then-President Felipe Calderon deployed Mexico's 
military to confront the country's powerful and violent cartels. The 
strategy produced a dramatic increase in serious abuses committed by 
security forces, virtually none of which have been adequately 
investigated and prosecuted.
Enforced Disappearances
    Human Rights Watch has documented approximately 150 cases of 
enforced disappearances during the administration of President Calderon 
(Dec. 2006-Dec. 2012)--cases in which we found compelling evidence that 
state agents had participated in the crime. These crimes have been 
perpetrated by members of all branches of the security forces: the 
Army, the Navy, and the federal and local police. In some cases, such 
as a series of more than 20 enforced disappearances by Navy personnel 
in June and July 2011, the common modus operandi of the crimes, the 
scale of the operations, and the inconsistent official accounts suggest 
the crimes may have been planned and coordinated. In more than 60 of 
the 149 cases, we found evidence that state agents collaborated 
directly with organized crime groups to disappear people and extort 
payments from their families.
    The enforced disappearances documented by Human Rights Watch do not 
represent all of the cases in Mexico since 2007. On the contrary, 
official statistics leave little doubt that there are hundreds, if not 
thousands, more. For example, Mexico's official National Human Rights 
Commission (Comisin Nacional de los Derechos Humanos) has registered 
nearly 2,500 disappearances in which evidence points to the involvement 
of government officials.
    Prosecutors and law enforcement officials consistently fail to 
search thoroughly and promptly for people reported missing or to 
investigate those responsible for the disappearances. All too often, 
officials blame the victims and tell families it is their 
responsibility to investigate. What limited steps prosecutors take are 
undermined by recurring delays, errors, and omissions. The inept or 
altogether absent investigations exacerbate the suffering of the 
families, for whom not knowing what happened to their loved ones is a 
source of perpetual anguish. Making matters worse, families of the 
disappeared may lose access to basic social services that are tied to 
the victim's employment, forcing them to fight slow, costly, and 
emotionally draining battles to restore essential benefits such as 
child care.
Torture
    Human Rights Watch has obtained credible evidence of torture 
committed by state agents in more than 170 cases across five states. 
The tactics we documented--which most commonly included beatings, 
asphyxiation with plastic bags, waterboarding, electric shocks, sexual 
torture, and death threats--are used by members of all security forces. 
The apparent aim of such tactics is to extract information about 
organized crime, as well as to elicit forced confessions that not only 
accept guilt but also a posteriori conceal the abuses by security 
forces leading up to and during coercive interrogations.
    Authorities responsible for preventing torture have been at best 
passive observers, and at worst active participants, in grave abuses. 
Prosecutors travel to military bases to take detainees' confessions in 
coercive conditions; medical examiners fail to document obvious signs 
of physical abuse; and judges admit testimony that defendants allege 
was obtained through torture without first investigating the 
allegations.
    Neither civilian nor military prosecutors adequately investigate 
and prosecute cases in which there is compelling evidence of torture. 
Officials rarely apply the Istanbul Protocol, a critical tool for 
detecting the physical and psychological effects of torture, and 
routinely fail to conduct basic steps critical to thorough and 
impartial investigations. Instead, prosecutors too often reflexively 
dismiss victims' allegations of torture as a cynical ploy by criminals 
to evade punishment. As a result of this chronic lack of investigation, 
cases of torture are not punished, abusive security forces continue to 
use tactics that violate civilians' rights, and a climate of impunity 
flourishes, which undermines broader public security efforts.
Extrajudicial Killings
    Human Rights Watch obtained credible evidence in 24 cases that 
security forces committed extrajudicial killings, and in most of these 
cases took steps to conceal their crimes. These killings fall into two 
categories: civilians executed by authorities or killed by torture; and 
civilians killed at military checkpoints or during shootouts where the 
use of lethal force against them was not justified. In the majority of 
these cases soldiers and police tampered with crime scenes, either to 
falsely present victims as armed aggressors or to cover up their 
excessive use of force. And in some cases, our research strongly 
suggests that security forces manipulated crime scenes to present the 
false appearance that extrajudicial executions by soldiers were in fact 
killings carried out by rival drug cartels. Furthermore, in more than a 
dozen cases, families of the victims of killings told Human Rights 
Watch they had been pressured by the Army to sign settlements agreeing 
to abandon all efforts to seek criminal punishment for soldiers, in 
exchange for compensation.
    Shootouts between criminal groups and security forces, as well as 
between rival gangs, lead to many casualties in Mexico. However, 
evidence of coverups by security forces and the complete lack of 
investigations into the overwhelming majority of killings cast serious 
doubt on the government's claims that most violent deaths are the 
result of confrontations. In the rare instances in which investigations 
into such killings are opened, justice officials fail to take basic 
steps to identify those responsible, such as conducting ballistics 
tests or questioning soldiers and police involved. In addition, rather 
than question official reports--many of which are marred by 
inconsistencies and contradicted by witness accounts--prosecutors 
accept security forces' reports as fact and overlook evidence of 
excessive use of force or torture leading to death.
The Use of Military Jurisdiction to Investigate and Prosecute Alleged 
        Abuses
    One of the main reasons military abuses persist in Mexico is 
because the military personnel who commit them are virtually never held 
accountable. And they go unpunished in large part because most cases 
are investigated and prosecuted in the military justice system, which 
lacks basic safeguards to ensure independence and impartiality. 
Mexico's Secretary of Defense wields both executive and judicial power 
over the Armed Forces. Military judges have little security of tenure 
and may fear that the Secretary will remove them or sideline their 
careers for punishing military personnel. And there is virtually no 
public scrutiny of, or access to, information about what actually 
happens during military investigations, prosecutions, and trials. The 
result is near total impunity for members of the military: while the 
Military Attorney General's Office opened nearly 5,000 investigations 
into alleged human rights violations committed by soldiers against 
civilians from January 2007 to April 2012, in only four of those cases 
were members of the military convicted (two of which are under appeal).
    A series of rulings by the Inter-American Court of Human Rights and 
Mexico's Supreme Court have called on Mexico to end this practice. The 
Inter-American Court of Human Rights issued four rulings to Mexico from 
2009 to 2010 in which it stated that under no circumstances should 
military jurisdiction apply to any human rights violations committed by 
the military against civilians. In July 2011, Mexico's Supreme Court 
ruled that Mexico's courts are obligated to comply with one of those 
decisions: the November 2009 Inter-American Court judgment in the 
enforced disappearance case of Radilla Pacheco v. Mexico. That ruling 
stated that, ``Regarding situations that violate the human rights of 
civilians, military jurisdiction cannot operate under any 
circumstance.'' In another landmark decision in August 2012, Mexico's 
Supreme Court ruled that the killing of an unarmed man by soldiers at a 
military checkpoint should be prosecuted in civilian jurisdiction, 
declaring that the article of the Military Code of Justice used to 
claim jurisdiction over human rights cases was unconstitutional.
    In spite of these rulings, efforts to reform the Military Code of 
Justice in Mexico's Congress have been met with stiff resistance. 
Meanwhile, unlike his predecessor, President Enrique Pena Nieto has not 
sent a proposal to Mexico's Congress to reform the military justice 
system. Nor were plans to pursue such a reform included among the 
myriad commitments Pena Nieto and other elected officials made in the 
Pact for Mexico (Pacto por Mexico), which set out key legislative 
priorities for the new government. The military has stated that it will 
continue to claim jurisdiction over cases of alleged abuses until its 
justice code is reformed. In the meantime, the practice of 
investigating such abuses remains unchanged, as do the results: the 
majority of complaints of human rights violations by soldiers continue 
to be sent to the military justice system, where they still go 
unpunished.
Calderon's Response
    In spite of unimpeachable evidence of enforced disappearances, 
torture, extrajudicial killings, and other abuses, President Calderon 
spent virtually his entire Presidency vigorously denying that any human 
rights violations had occurred. Instead, he falsely claimed that 90 
percent of the victims of drug-related violence were criminals, and 
said that reports of abuses had been fabricated by narcos in order to 
undermine the reputation of Mexico's security forces. It was not until 
his final year in office that Calderon reluctantly conceded that abuses 
had occurred. Nevertheless, he continued to insist--contrary to all 
evidence--that they were isolated incidents, and did not put in place 
policies to ensure that those responsible for the abuses were brought 
to justice.
    Beyond producing horrific abuses by security forces, Calderon's 
``war on drugs'' also failed to halt an alarming rise in violence, or 
dismantle the drug-trafficking organizations that pose a serious threat 
to Mexico's national security. By the government's tally, more than 
70,000 people were killed in drug violence during the Calderon years, 
rising from over 2,500 in 2007 (his first full year in office) to a 
peak of nearly 17,000 in 2011. Meanwhile, of approximately 620,000 
people who were detained in counternarcotics operations, nearly 500,000 
(roughly 80 percent) were released for lack of evidence or let out on 
bail. (In Mexico, people charged with organized crime or other serious 
offenses cannot be released on bail, meaning that those granted bail 
could only have been charged with minor crimes, not connected to 
organized crime.)
               the pena nieto government: a new approach?
    Since President Pena Nieto took office in December 2012, we have 
seen a shift in the government's willingness to recognize some of the 
serious human rights abuses committed by security forces in the ``war 
on drugs'' and, more broadly, the need to change Mexico's 
counternarcotics strategy. In February 2013, for example, Human Rights 
Watch released a report documenting widespread disappearances carried 
out by Mexican soldiers and police. The day we released the report, the 
Pena Nieto administration acknowledged that more than 26,000 people had 
been reported disappeared or missing to government officials during the 
previous administration--a number that had never previously been made 
public--and pledged to implement many of our recommendations, such as 
the creation of a national database of the disappeared.
    Two weeks ago, I was in the northern Mexican state of Coahuila, 
which is across the border from Texas, and is among those hardest hit 
by drug violence. The Governor, Ruben Moreira, told me that more than 
1,800 people had disappeared in his state alone. In only one of those 
cases have those responsible for the crime been convicted. While I was 
in Coahuila, Mexico's deputy attorney general for human rights, Ricardo 
Garcia Cervantes, visited the state to meet with relatives of people 
who have been disappeared. In a public address, he told the families 
that Mexico is in the midst of ``a humanitarian crisis,'' to which he 
said the government's response until now has been grossly inadequate.
    While acknowledging these problems is a critical step, the Pena 
Nieto administration has yet to put forward a concrete, comprehensive 
plan for how to remedy them. One of the critical questions that must be 
addressed is: How will the Pena Nieto administration's security 
strategy be different from its predecessor's? For example, how will it 
build a professional, accountable federal police force, rather than yet 
another corrupt and ineffective one? How will it strengthen anemic 
efforts to implement a nationwide overhaul of Mexico's broken justice 
system, and prevent counterreforms that would allow some of the most 
pernicious practices of the old system--such allowing confessions 
obtained through torture to be admissible in court--in through the back 
door? Until now, the Pena Nieto administration has provided no clear 
answers to these questions.
    Nor, in the time since this administration took office, have 
federal, state, or military prosecutors demonstrated meaningful 
progress in the investigation and prosecution of any of the hundreds of 
cases of disappearances, torture, and executions documented by Human 
Rights Watch. These include cases in which we have provided evidence 
that not only identifies the specific security force involved, but also 
the individual units responsible for the abuse.
                     the role of the united states
    As the main supplier of illicit weapons and the main destination 
for the drugs trafficked through Mexico, the U.S. has a shared 
responsibility for addressing Mexico's organized crime problem. The 
U.S. has played an active role in collaborating with Mexico's 
counternarcotics efforts, primarily through the Merida Initiative, 
which has channeled approximately $2 billion to Mexico since 2007. 
Fifteen percent of that assistance is supposed to be conditioned 
annually to Mexico's ability to meet a set of basic human rights 
requirements, which include ensuring that military personnel who commit 
alleged abuses are investigated and prosecuted in civilian courts.
    Yet despite unequivocal evidence that Mexico has failed to meet the 
requirements, the Obama administration has repeatedly allowed the funds 
to be released. As justification, the State Department has argued that 
Mexico has demonstrated progress toward meeting the requirements as 
well as greater engagement which, while positive, are not the standards 
set by the law, nor do they reflect the reality in Mexico. The only 
frank questioning of whether these requirements have been met has come 
from Members of the U.S. Congress, who have rightly asked what the 
purpose is of the U.S. establishing human rights requirements if the 
government is not going to enforce them.
    Making matters worse, confronted with one of the worst human rights 
crises in the hemisphere in decades, the Obama administration has 
consistently offered uncritical support for Mexico's ``war on drugs.'' 
On multiple occasions, President Obama expressed admiration for 
Calderon's ``bravery'' in confronting cartels, without once expressing 
concern publicly about the widespread abuses being committed by Mexican 
security forces, or for Calderon's rhetoric blaming the victims for the 
abuses they suffered. In a state visit to Mexico in April 2013 to meet 
with Pena Nieto, Obama again neglected to express public concern about 
human rights violations by security forces.
    So what can the U.S. Government do to address these serious abuses, 
and the broader public security problems that persist to this day?
    While it is true that Mexico is facing extremely powerful cartels, 
endemic corruption, and near total impunity for those who commit 
crimes, the willingness of the Pena Nieto administration to reform its 
public security approach presents a genuine opportunity to address 
significant flaws in Calderon's ``war on drugs.'' The U.S. should seize 
this opportunity by taking a proactive role in working with Mexico to 
craft a new strategy that recognizes that respect for human rights is a 
fundamental part of--rather than an obstacle to--improving public 
security. Both the U.S. and Mexico should send a clear message that the 
way to dismantle powerful cartels is not through arbitrary arrests and 
torture, but rather through comprehensive investigations, which lay the 
groundwork for prosecuting vast, sophisticated criminal networks.
    To achieve that goal, Mexico will need to train security forces who 
understand that cutting corners on rights will only exacerbate the 
climate of lawlessness in which cartels thrive. And it will need to 
train prosecutors who have the capacity and will to investigate violent 
criminals and abusive security forces alike. Meanwhile, the U.S. will 
need to candidly evaluate Mexico's progress toward meeting the human 
rights requirements contained in the Merida Initiative, and withhold 
funds when those benchmarks are not met.
    Not only will such a shift in strategy reflect the shared values of 
the U.S. and Mexico, but it will also advance the immediate goal of 
improving security while curbing abuses, which is in both countries' 
interest.
    Thank you for your time. I look forward to answering any questions 
you may have.

    Senator Udall. Thank you for your testimony.
    Please proceed, Dr. Wood.

     STATEMENT OF DR. DUNCAN WOOD, PH.D., DIRECTOR, MEXICO 
 INSTITUTE, WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS, 
                         WASHINGTON, DC

    Dr. Wood. Thank you very much, Chairman Udall, Senator 
Kaine.
    I would like to begin by stating that we are still in the 
early stages of the Pena Nieto administration's implementation 
of its security strategy, so our evaluation can only be 
somewhat partial at best. However, even though there are still 
insufficient details available to the general public, there are 
clear lines developing within the strategy and they provide us 
with a point of entry into the analysis.
    Thus far we can identify two central themes to the Mexican 
Government's strategy that stand out above all the rest. The 
first of these is coordination. The government has identified 
that one of the major failings of the Calderon administration 
was its failure to properly and adequately coordinate the 
actions of the diverse security agencies in Mexico. That is why 
upon taking office President Pena Nieto took the immediate step 
of centralizing security decisionmaking power into the 
Secretaria de Gobernacion, the Interior Ministry, under the 
leadership of Miguel Angel Osorio Chong, bringing the office of 
public security under his purview.
    But the coordinating tendency is not limited just to 
structural changes in the administration. Much higher levels of 
coordination between all government ministries and between the 
federal and state governments has emerged as a central feature 
of this government. This coordinating theme is to be seen most 
clearly in the operation of the Pacto por Mexico, a 
coordinating mechanism between Mexico's major political parties 
that has achieved considerable success thus far in getting 
reforms passed through the Congress that includes 34 different 
proposals relating to security policy.
    The second major theme of the administration's security 
strategy is violence and crime reduction. The government is 
touting the role that will be played by the ministry of 
prevention and citizen participation under the leadership of 
Under Secretary Roberto Campa within the Interior Ministry. 
Coordination is again a central element here.
    The national program for the social prevention of violence 
and crime is based on close coordination between nine different 
government ministries. Although details are still not clear, 
the goal of this government agency is to invest heavily in 
social programs and citizen engagement strategies at the local 
level in high-risk communities. Building on the successful 
experience of cities such as Tijuana, Ciudad Juarez, and now 
Monterrey, the government is developing a range of social 
programs that seek to both reduce immediate violence levels and 
prevent youth from entering into organized crime.
    When we examine Pena Nieto's administration's security 
strategy at a closer level, we should take note of several 
other approaches that stand out, and a number of them have been 
mentioned already. First of all, there is the creation of the 
much touted gendarmerie, which will be a paramilitary style 
police organization. Its final size is really not clear. We 
seem to be getting different messages from the Mexican 
Government about that. It will be used largely as a rapid 
reaction force in those areas of the country where local and 
state police are either failing or absent.
    Second, there is once again the discussion of the idea of 
the unified command structure, the mando unico, for police 
forces. The idea is to bring together the multiple police 
forces in each of Mexico's states under one unified command 
structure. It is an idea that was attempted under the Calderon 
administration and it has returned as part of the pacto pro 
Mexico, that political mechanism, and we are waiting to see how 
it will be implemented.
    At the same time, the government has recognized that 
different regions of the country have divergent security needs 
and has thus divided up Mexico into five security zones, each 
of which will be treated accordingly. This is where the 
government faces its biggest threat in the short term, 
understanding the diversity of Mexico's public security 
challenges cross different zones and implementing actions that 
will bring down violence levels. Already the government has 
been able to report drops in homicides, but there is 
considerable skepticism in Mexico over the official numbers and 
it is unclear if this is a long-term trend or just a short-term 
drop.
    The impact of the change in security strategy by the Pena 
Nieto administration on United States-Mexico relations has been 
marked. Since the elections of last July, there has been a 
process under way of gaining mutual understanding, with United 
States authorities trying to find areas of overlap and common 
interest with their Mexican counterparts. Of course, the 
process really only began in earnest with the beginning of the 
new administration in December, and since then there have been 
many comments by U.S. personnel that it is much more difficult 
to communicate and talk substantive issues with the new Mexican 
security team.
    Much-publicized decisions by the Mexican Government to halt 
ongoing cooperation has also proved an irritant. It is my 
understanding the process of feeling each other out is still 
very much under way.
    But we can point to a number of areas where we can expect 
fruitful collaboration. First in the area of prevention and 
violence reduction, there is ample room for continued 
cooperation similar to that which took place under pillar four 
of the Merida Initiative. The work of rebuilding communities, 
of investing in social programs, of engaging in civil society 
and crime prevention and the justice system, has attained 
significant success in places such as Baja California, and the 
experience of working with U.S. agencies there provides a model 
for future efforts.
    Second, there is likely to be receptive attitude from the 
Mexican authorities with regards to the issue of policing 
standards. As the process of unifying police commands across 
communities in Mexico continues and as police 
professionalization remains a key topic, there is much that the 
United States has to offer.
    Third, the creation of the gendarmerie will likely involve 
the secondment or permanent transfer of military personnel into 
the new force. In order to avoid the pitfalls of having troops 
adopt a policing function, there will be a need to retrain 
these elements.
    Beyond this, money-laundering will be a key issue. Mexico's 
new anti-money-laundering laws will require immediate 
implementation, and the United States and Mexico could 
cooperate very fruitfully on that issue.
    On intelligence-sharing, I perceive a more difficult road 
ahead. Trust issues in the absence of mutual understanding, 
combined with a centralization of power over security policy 
and the Interior Ministry, mean that the progress of the past 5 
years is by no means guaranteed. At this point in time it is 
vital that we adopt a long-term perspective, that patience and 
good judgment prevails, and that we do not burden the new 
relationship with the expectations of the old.
    Thank you for your attention.
    [The prepared statement of Dr. Wood follows:]

                 Prepared Statesment of Dr. Duncan Wood

    Thank you, Mr. Chairman, members of the committee, it is a 
privilege to join you today.
    I have been asked to cover a number of issues related to Mexico's 
evolving security situation today and would like to begin by stating 
that we are still in the early stages of the Pena Nieto 
administration's implementation of its security strategy so that our 
evaluation can only be somewhat partial at best. However, even though 
there are still insufficient details available to the general public, 
there are clear lines developing within the strategy, and they provide 
us with a point of entry into the analysis.
    Thus far we can identify two central themes to the Mexican 
Government's strategy that stand out above all the rest. The first of 
these is coordination. The government has identified that one of the 
major failings of the Calderon administration was its failure to 
properly and adequately coordinate the actions of the diverse security 
agencies in Mexico. That is why, upon taking office, President Pena 
Nieto took the immediate step of centralizing security decisionmaking 
power into the Secretaria de Gobernacion (Interior Ministry), under the 
leadership of Miguel Angel Osorio Chong, bringing the office of Public 
Security under his purview. But the coordinating tendency is not 
limited to structural changes in the administration. Much higher levels 
of coordination between all government ministries, and between the 
federal and state governments has emerged as a central feature of this 
government. The coordinating theme is to be seen most clearly in the 
operation of the Pacto por Mexico, a coordinating mechanism between 
Mexico's major political parties that has achieved considerable success 
in getting reforms passed though the Congress and includes 34 different 
proposals relating to security policy.
    The second major theme of the administration's security strategy is 
violence reduction. The government is touting the role that will be 
played by the Ministry of Prevention and Citizen Participation 
(subsecretaria de Prevencion y Participacion Ciudadana), under the 
leadership of Under Secretary Roberto Campa, within the Interior 
Ministry. Coordination is a central element here: the National Program 
for the Social Prevention of Violence and Crime is based on close 
coordination between the Ministries of the Interior, Social 
Development, Health, Education, Economy, Employment, Communications and 
Transport, Agrarian Development and Finance. Although details are still 
not clear, the goal of this government agency is to invest heavily in 
social programs and citizen engagement strategies at the local level in 
high-risk communities. Building on the successful experience of cities 
such as Tijuana, Ciudad Juarez, and now Monterrey, the government is 
developing panoply of social programs that seeks to both reduce 
immediate violence levels and prevent youth from entering into 
organized crime.
    I mention Monterrey for three reasons. First, it was discussed 
recently in a piece by The Economist magazine that focused on the 
central theme of rebuilding and maintaining the social fabric. Second, 
it is the marquee program that is being touted by the government and 
highlights the administration's goal of coordination. Monterrey 
involves close collaboration between the Federal Government, the 
government of the state of Nuevo Leon, the municipal government, 
business and civil society groups. Third, it highlights the tie in 
between these social programs and the remaking of state-level police 
forces. The Fuerza Civil is a new police force for Nuevo Leon that has 
been in the making since 2011, and the government sees this as an 
example to be followed by the rest of the country.
    When we examine the Pena Nieto administration's security strategy 
at a closer level, we should take note of several other approaches that 
stand out. First, there is the creation of the much-touted gendarmerie, 
a paramilitary style police organization whose final size is unclear 
(somewhere between 10-50 thousand), which will be used as a rapid 
reaction force in those areas of the country where local and state 
police are failing or absent. Second, there is once again the 
discussion of the idea of the unified command structure for police 
forces, the mando unico. The idea here is to bring together the 
multiple police forces in each of Mexico's states under one unified 
command structure, to ensure better coordination, professionalization 
and the implementation of common standards. An idea that was attempted 
under the Calderon administration, it has returned as part of the Pacto 
por Mexico, and we are waiting to see how it will be implemented.
    At the same time, the government has recognized that different 
regions of the country have divergent security needs, and has thus 
divided up Mexico into five security zones, each of which will be 
treated accordingly. This is where the government faces its biggest 
threat in the short term--understanding the diversity of Mexico's 
public security challenges across different zones and implementing 
actions that will bring down violence levels. Already the government 
has been able to report drops in homicides but there is considerable 
skepticism in Mexico over official numbers and it is unclear if this is 
a long-term trend or just a short-term drop.
    Judicial reform and penal reform are also key elements in the 
government's overall approach. Continuing, and accelerating the 
implementation of the judicial reforms of 2008 is a priority according 
to leading government representatives. The deadline for implementation 
is 2018, but the urgency of a properly functioning court system is more 
urgent than ever. Although tens of thousands have been sent to trial 
over the past 6 years, only a small percentage has been incarcerated, 
and the public has almost no faith in the operation of Mexican justice. 
Just as urgent is a reform of the prison system--of those who have been 
convicted and have gone to prison many have escaped, and those who have 
stayed in jail have continued to play a role in organized crime 
activities. However, there is little sign as yet that the government is 
ready to take on a wholesale reform of the prison system.
    The impact of the change in security strategy by the Pena Nieto 
administration on U.S.-Mexico relations has been marked. Since the 
elections of last July, there has been a process underway of gaining 
mutual understanding, with U.S. authorities trying to find areas of 
overlap and common interest with their Mexican counterparts. Of course 
the process really only began in earnest with the beginning of the new 
administration in December, and since then there have been many 
comments by U.S. personnel that it is much more difficult to 
communicate and talk substantive issues with the new Mexican security 
team. Much publicized decisions by the Mexican Government to halt 
ongoing cooperation have provided an extra irritant. It is my 
understanding that the process of ``feeling each other out'' is still 
very much underway.
    However, we can point to a number of areas where we can expect 
fruitful collaboration. First, in the area of prevention and violence 
reduction, there is ample room for continued cooperation, similar to 
that which took place under Pillar IV of the Merida Initiative. The 
work of rebuilding communities, of investing in social programs, of 
engaging with civil society in crime prevention and in the justice 
system has attained significant success in places such as Baja 
California and the experience of working with U.S. agencies there 
provides a model for future efforts. Second, there is likely to be a 
receptive attitude from the Mexican authorities with regards to the 
issue of policing standards. As the process of unifying police commands 
across communities in the states of Mexico continues, and as police 
professionalization remains as key topic, there is much that the U.S. 
has to offer. Third, the creation of the gendarmerie will likely 
involve the secondment or permanent transfer of military personnel into 
the new force. In order to avoid the pitfalls of having troops adopt a 
policing function, there will be a need to train these individuals in 
policing, criminal justice, and investigation techniques. Again, the 
U.S. has significant and important experience in this area.
    Beyond these areas, counter-money-laundering actions and 
intelligence gathering and sharing continue to provide potential areas 
for collaboration. Mexico's new anti-money-laundering laws require 
immediate implementation--over the past 5 years, a mere 83 individuals 
were convicted of money laundering in Mexico, while we know that more 
than $10 billion is laundered a year within the country. The movement 
of money back from the United States is an issue that needs to be 
addressed and high-level talks are needed on that issue. On 
intelligence-sharing I perceive a more difficult road ahead. Trust 
issues and the absence of mutual understanding, combined with the 
centralization of power over security policy in the Interior Ministry, 
mean that the progress of the past 5 years is by no means guaranteed. 
At this point in time it is vital that we adopt a long-term 
perspective, that patience and good judgment prevails, and that we do 
not burden the new relationship with the expectations of the old.
    Last, I have been asked to comment on the recent visit by President 
Obama to Mexico, to meet with President Pena Nieto. There can be little 
doubt that the visit was a huge success, both in terms of building a 
relationship with the Mexican President on a personal level, and in 
convincing the Mexican public that the relationship with the United 
States is a positive one. In particular, the speech given by the 
President at the National Anthropological Museum received very 
favorable press and attention. On a more substantive level, the 
agreements between the two Presidents on education and the economy have 
injected new vigor into bilateral affairs, helped greatly by the 
optimism over the prospects for immigration reform here in Washington. 
Already we are seeing benefits in terms of spill over into other 
areas--the upcoming Inter-Parliamentary Group meetings in Washington in 
the fall, as well as the bilateral talks on energy scheduled for 
October, promise to further revitalize the relationship.
    Thank you for the opportunity to speak before you today. I am, of 
course, at your disposal to answer any questions you might have on my 
testimony.

    Senator Udall. Thank you, and thank all three of you for 
that excellent testimony there.
    All three of you are in the unique position of not 
representing a United States or Mexican interest and you are 
able to take a more nuanced look at the challenges facing 
United States-Mexico security cooperation. In your honest 
opinion--and I know you have talked about this a little, but I 
thought we would get into it in a little more depth--do you 
believe that we have made progress in our shared efforts to 
strengthen the institutions and combat drug cartels in Mexico? 
Whoever wants to jump in first, that is fine.
    Dr. O'Neil.
    Dr. O'Neil. Thank you. I do think we have made progress. 
When we look back at the last 5, 6 years of the Merida 
Initiative, some almost $2 billion spent, in part it is the 
monetary commitment to work with our neighbor, which was not 
there before the Merida Initiative, when less than $40 million 
a year was spent on security aid.
    But perhaps more important than the money is the contacts, 
the back and forth. So we have agencies talking to agencies, 
agents talking to agents, working with each other and helping 
Mexico work through a problem, which, as my colleagues here 
have said, is a coresponsibility. It is a problem that crosses 
the border and involves both countries.
    I think the challenge is today is now with the new 
administration there and a new administration here in the 
United States, is how do we continue and how do we build on the 
good that has happened there, but also perhaps some of the 
areas where we have not made as much progress as we would like.
    When you look at the four pillars of the Merida Initiative, 
there has been significant progress on the taking down of the 
kingpins. There has been some progress on the institution-
building, particularly at the federal level and the police. 
There is much more, I believe, that can be done on that level, 
particularly moving from the federal level to the state and 
local level and, as I mentioned in my testimony, moving into 
the justice reform and really helping this country push that 
over the finish line, which is supposed to be 2016, just 3 
years from now.
    Then I would also like to say, on the last two pillars, the 
modernizing of the United States-Mexico border as well as the 
building of community resilience, I think there is a lot the 
United States can do, continue to do and deepen on that side. 
The benefit of those two is it helps strengthen communities 
that cross the border, particularly since so many Mexicans in 
Mexican-Americans have family ties, community ties, as well as 
economic ties. So strengthening the border helps those 
families, those communities, as well as helps our larger 
economy.
    Senator Udall. Thank you.
    Mr. Steinberg. I think possibly the institution and the job 
in Mexico that still requires the greatest amount of work is 
the job of building prosecutors, both at the federal and the 
state level, who can investigate crimes. Mexico has a 98-
percent impunity rate and I think that is being generous.
    Now, to your question of whether the United States 
cooperation on building prosecutors at the federal and state 
level has actually succeeded, I think perhaps best to quote 
here from the current Attorney General of Mexico, Murillo 
Karam, whose word that he uses to describe the state of the 
federal prosecutor's office, the Attorney General's office that 
he inherited, is ``desmantelada,'' which is more or less ``in 
shambles.'' That is the way he describes the office.
    That is very much borne out by the experience that we have 
had in working with cases that we follow to see if the 
investigation is advanced or not. So I think that the biggest 
lacuna in the investment of building a justice system and the 
rule of law in Mexico is training prosecutors that know how to 
do the very basic job of investigating cases. What we have seen 
is families who are affected by these crimes do more to 
investigate the cases than prosecutors. In other words, it is 
not rocket science, it is not that they do not know how to do 
it; it is that there is a lack of will.
    I think if we scale up from this, that is very much 
reflected in the advance of the justice reform in general. I 
know that it is something that Mexico needs, that on paper is a 
beautiful reform. It is beautifully written. And where we see 
it faltering is in the implementation. Three of thirty-two 
states have fully implemented the justice reform at the state 
level.
    The ones that have advanced the most are the ones that have 
also seen the greatest counterreforms that bring the worst 
practices of Mexico's old justice system in through the back 
door. So I think there needs to be a very frank accounting of 
the lack of progress, not for lack of effort on the United 
States side, but in terms of producing investigators, 
investigative police and prosecutors in Mexico that can put a 
dent in the huge wall of impunity that exists right now.
    Thank you.
    Senator Udall. Do you think with this new--I guess they put 
a deadline in of 2016 to achieve a lot of these reforms. Are 
they going to make it? My sense is you think very few of the 
states will make it.
    Mr. Steinberg. Well, you know, I guess the message would be 
we want them to make it, but we want them to do it well. So the 
states that have made it--let us use Chihuahua, which is the 
first state to have crossed the finish line. Chihuahua had the 
unfortunate luck of being the state that was the most advanced, 
that then was hit with the most dramatic wave of violence. So 
the system was immediately inundated and overwhelmed. What our 
experience has shown us in Chihuahua is that to implement the 
justice system in a state that was experiencing unprecedented 
levels of violence produced the effect that many citizens 
living in that state said: The problems that we have are 
generated from the new justice system and it is the fault of 
the Attorney General who is implementing it and the prosecutors 
who are not doing their jobs, and this is for criminals.
    So there is a huge risk in that Mexico is trying to 
implement what even in normal circumstances would be an 
incredibly complicated reform to its justice system, at a time 
when the country is experiencing its greatest wave of violence 
in decades. So they need all the help they can get, and I think 
the essence--we have made this point with USAID, we have said 
this to the Embassy in Mexico. We think that it is important to 
generate a couple models of states that perhaps are not in as 
dire a situation as Chihuahua was when they implemented it, and 
show that actually the justice reform, if implemented properly 
is good for public security, it is good for convicting 
criminals, and it is good for protecting the innocent. And we 
do not have a model like that yet.
    Senator Udall. Thank you.
    Dr. Wood.
    Dr. Wood. Thank you. I think that undeniably the experience 
of the last 6 years or so has been incredibly useful and 
incredibly fruitful. I was living in Mexico for all of that 
time until December of last year and the attitude in Mexico was 
that we were entering a new phase of security collaboration 
between the United States and Mexico. On the issue of security, 
this was an issue that had been taboo up to this point. It was 
extraordinary, the leap forward that was made over the past few 
years.
    But there was a certain degree of hubris at work as well. I 
think that people believed that this was a change that was 
permanent, that could not really be turned back. I think it was 
a belief that things had changed forever in Mexico, just based 
upon the experience of the Calderon administration.
    What we have seen over the past 6 months is that, in fact, 
the Calderon administration was the anomaly, I would say, that 
this willingness to enter into a very, very active, very open 
security relationship with the United States, is something that 
we should not expect to continue in the future. It does not 
mean that we should not be optimistic about security 
collaboration between the two countries. On the contrary, I 
would say that the experience of the past 6 years showed the 
new administration that there is a lot to be gained from 
cooperation with the United States, not just in terms of 
equipment and training, et cetera, but in terms of having a new 
vision on security.
    The idea is that, as Shannon mentioned in terms of the 
resilient communities, which is something that really came out 
of the discussions between the two countries, had a huge impact 
in places such as Ciudad Juarez, is having a very positive 
impact right now in the city of Monterrey. Nobody is saying 
that that will solve the problem of security in those places, 
but it has to be an integral part. The government has embraced 
that under the new administration.
    Information-sharing and intelligence-sharing were crucial 
over the past 6 years in securing the arrest or targeted 
killings of leaders of organized crime. And the trust that was 
built up between individuals was seen as being a very, very 
crucial element.
    Now, every time that we talk about Mexico I think there is 
a tendency to oversimplify things. So people say that 
everything was great in terms of cooperation under the Calderon 
administration and now things are not so good. I think we have 
to adopt a much more nuanced approach, and that is to say that 
what we are finding right now is that the United States 
Government and the Mexican Government are trying to find areas 
in which they can both work together, in which they are both 
comfortable.
    That really depends upon approaching the new Mexican 
administration in the way that they want to be approached. That 
is a difficult conundrum to solve because it is a much more 
closed communication strategy, if you will. They are not nearly 
so forthcoming with what they want to work together on. So the 
people that I have spoken to in U.S. Government on the ground 
tell me that it is really a question of, would you like to talk 
about this? would you like to talk about that? and then once 
you get a more positive response you then pursue it.
    So this is going to take time, I think. As a good friend of 
mine always says with Mexico, lower your expectations and adopt 
a long-term perspective, and I think things are going to work 
out pretty well. But it really is a process right now of 
getting to know each other again.
    Senator Udall. Do you think that President Obama's trip and 
then his subsequent meeting down there with President Pena 
Nieto, did that move things along or were we running into the 
same kind of problems that you are talking about here?
    Dr. Wood. I think that the visit itself was an undisputed 
success. It was a huge success. You saw the very positive press 
that came out of it. But more importantly than that and more 
important than any of the agreements that came out of that, 
that visit, I think was the personal relationship that is 
developing between the two Presidents, which allows for a level 
of trust.
    But just as important as that I would say is the series of 
meetings that took place in the weeks prior to the visit, where 
you saw senior Mexican politicians and Mexican Government 
representatives coming up here to Washington. Folks over at the 
State Department would say: It seems like every week is Mexico 
week right now, because there were always a steady stream of 
Mexicans who were here.
    In particular, I would point to the visit by Minister of 
the Interior Osorio Chong, which was crucial in exposing him to 
the way in which things are done here in Washington, to 
understanding the willingness to cooperate. That is something 
which I think will bear fruit in the long term.
    Senator Udall. Thank you.
    Mr. Steinberg, you have focused on some of the key human 
rights issues that still need to be addressed in Mexico. Do you 
believe that the current plan put forward you the Mexican 
Government will adequately meet the needs of the Mexican 
people, and what in your opinion are the aspects missing from 
the Mexican plan to help improve the human rights conditions in 
Mexico?
    Mr. Steinberg. In terms of the difference between the new 
government and the old government, as I outlined in the 
testimony, certainly this government, unlike its predecessor, 
is acknowledging the scale of the problem that they have 
inherited. We do not have to, when we meet with this 
government, convince them that human rights are an issue, 
abuses of human rights are an issue that they need to deal 
with. They are aware of that.
    Where I think the approach of the new government has been 
lacking is that so much of the government's plan--and this 
comes from our meetings with the Home Minister, Osorio Chong, 
with the Attorney General, Murillo Karam, with Governors in 
some of the states that have experienced the most serious 
increase in human rights abuses--is geared toward preventing 
human rights abuses in the future. In other words, the line is: 
What can we do to develop and train security forces so they do 
not disappear more people, torture more people, kill more 
people?
    What they do not seem to have grasped yet, because it is 
not in any of the plans, is that the most effective way to 
prevent human rights abuses is to show security forces that 
there are consequences when they step out of line. Until now 
there is no element in any of the human rights plans that the 
government has put out--and it has put out a lot of them; they 
have a whole chapter in their national development plan that 
deals with it--is a plan for investigating and prosecuting the 
enormous backlog of abuses that this government has, including 
new abuses from this administration.
    Let me just give you one statistic that I think captures 
it. Mexico's military attorney general's office, which is 
responsible for investigating all of the abuses that are 
committed by soldiers against civilians--that is a problem in 
itself; it should be in the civilian justice system; I will 
leave that alone for now. They have a backlog, we obtained 
through Freedom of Information requests, of more than 5,000 
cases open--now, these are the cases where people are brave 
enough to come forward and denounce the abuses; it is a small 
slice of the pie--into serious abuses by soldiers against 
civilians.
    Of those cases, only four have resulted in convictions of 
soldiers. So 4 out of 5,000, and those are the 5,000 that are 
reported. That is a huge deficit, and until this administration 
starts to send the message to security forces, new gendarmerie 
or old, army, navy, federal police, local police, it will not 
be able to prevent human rights abuses going forward, and we do 
not see that element in their plan.
    Senator Udall. The 5,000 cases, how old are those?
    Mr. Steinberg. Those are all from 2007 to midway through 
2012. So they are all from the previous administration.
    Senator Udall. OK.
    Mr. Steinberg. So we have been asking--we have many public 
information requests in. They take many months to get back. So 
we hope to have updated numbers, but that is just that period 
through mid-2012.
    Senator Udall. Dr. O'Neil, your recent book ``Two Nations, 
Indivisible: Mexico and the United States and the Road Ahead,'' 
focused on the many challenges and opportunities facing Mexico. 
One such challenge and opportunity was leveraging the middle 
class of Mexico. You noted the growth of this economic 
demographic, but also pointed out that this new middle class 
is, ``decidedly an urban phenomenon.''
    In your opinion, how should the Mexican Government focus 
its efforts to stimulate economic development in rural areas, 
the border regions, and what role should North American 
Development Bank play to help stimulate improvements?
    Dr. O'Neil. Thank you. This has been one of the big 
transformations, this growth of the middle class in Mexico, and 
it is something that this government is thinking a lot about. 
You look at their economic policies and there they are much 
clearer than perhaps the security policies we have been talking 
about, and they are quite ambitious. So we see reforms have 
passed, labor reform, education reform, telecommunications 
reform, the financial reform that is going through the system, 
and the President talking about an energy reform as well as a 
tax reform, all in this year.
    What Mexico needs to do to really stimulate this middle, 
that will then stimulate their GDP growth more broadly, they 
need to do long-term things like take on their education 
system, which is quite weak. They have started to do this, but 
this is a long, long road. They need to invest in 
infrastructure. They are far behind in terms of roads, 
railroads, ports, airports, particularly as they see, I would 
say justifiably so, particularly as they see their future 
linked to the United States, to the manufacturing and the 
production that happens on both sides of the border, supporting 
companies and workers on both sides of the border. 
Infrastructure is vital to make them more and more competitive 
vis-a-vis other nations like China, Brazil, Europe, or even 
Canada. When we think about the way that this works, it is 
important that they increase their infrastructure to boost 
their economy.
    The other thing that they struggle with are the 
concentrated economic sectors, the monopolies, the oligopolies, 
that make prices for average Mexicans much higher than they 
should be, but then also hurt competitiveness of companies that 
operate on their side of the border as well as on our side of 
the order.
    So these are big issues that affect not just urban 
citizens, but will also affect the rural areas. Connecting the 
rural areas better to urban centers or to the United States 
will make a huge difference. That also carries over to the 
border that you mentioned, and how to make the border more 
efficient, more competitive, will help the companies that are 
located there and that are located on both sides of the border, 
not just on the Mexican side of the border, but on the United 
States side of the border.
    This is now an often-repeated statistic, but I think it 
bears repeating one more time, because what we have seen is a 
transformation in the way the United States and Mexican 
economies 
are linked. So today, for the products that come in from 
Mexico, so 
that are, ``made in Mexico,'' on average almost 40 percent of 
that product was actually made in the United States by United 
States workers. So that interconnection is something that is 
good for companies on both sides, but workers on both sides.
    So working with the infrastructure on the border to speed 
the transit, to facilitate the transit, will help people, but 
also the economies on both sides, benefiting us both.
    Senator Udall. Do you have any thoughts on the North 
American Development Bank?
    Dr. O'Neil. Today the Development Bank has been quite 
limited in its mandate, to environmental focus, to some other 
infrastructure focuses. I do think there is a role that this 
can play, a much broader role. When you look at reports from 
our government, official reports on what is needed at the 
border, the investment is there, but it is not a huge amount of 
investment. It is somewhere probably in the order of $6 
billion, $8 billion, over the next decade, that would really 
make a difference.
    I do think the North America Development Bank can play a 
role in this, in helping build the infrastructure on both sides 
of the border and speed this. This is a place where we could 
invest not a huge amount of money, but have a huge outsized 
return.
    Senator Udall. Thank you.
    Shifting a little bit to immigration and the debate around 
immigration, we have heard a lot in that debate about how we 
need to secure our border. I agree that a secure and efficient 
border is an important objective. With regards to our shared 
border and our efforts as part of the Merida Initiative to 
create a 21st century border, do you believe that it is 
possible to completely shut down the border and completely 
prevent the transit of drugs through such a border?
    Dr. O'Neil. In thinking about the border and security at 
the border, you need to think about both the costs and the 
benefits. When you look at a bit of historical perspective and 
you think about the border that we had known as the Iron 
Curtain, the amount of money that was spent there, the troops 
that were put there, the no man's land put between there, the 
concertina wire and everything else to keep people, the shoot 
to kill orders on one side of the border, and you still saw a 
few thousand intrepid souls get over that border each year.
    So the idea of securing the border 100 percent seems 
unfeasible. It is particularly unfeasible when you are thinking 
about someone that is not a country that is isolated from you 
ideologically, commercially, and the like, but is one of the 
United States most important trading partners--the idea of 
closing this down.
    So what we should be thinking about is how to better secure 
the border in the sense of diminishing the flows of bad things 
while facilitating the flows of good things, and what that 
tradeoff might be. That to me is a better framework for 
securing America's future.
    Senator Udall. Dr. Wood, do you have thoughts on that?
    Dr. Wood. Yes, just a couple of followup points. I think 
that in terms of your question about rural areas in Mexico, 
particularly in the north, there is a looming question, a 
looming crisis there in terms of water issues. I mean, it is a 
controversial issue in the bilateral relationship already.
    I was in the state of Chihuahua a couple of weeks ago, 
actually last week, and the drought there is a major crisis. 
You see the same thing in the state of Coahuila, across the 
north of the country. This is really driving a lot of the 
hardship that is taking place in agricultural communities in 
the north of the country.
    That is something that I think we really need to work with 
on the bilateral basis with the Mexicans. It is an issue that 
obviously hits border communities on the United States side of 
the border, and this ties directly into questions of migration, 
not just across the border, but of Mexicans moving from rural 
areas into the cities, of young Mexican men in particular being 
the fodder for organized crime units.
    Agriculture has suffered in Mexico over the past 20 years. 
A lot of Mexicans blame the NAFTA for that. It is not the NAFTA 
that is to blame. It is actually a lack of investment in the 
sector. Some areas of agriculture have actually benefited. You 
look at the pork industry, for example, in Mexico, which has 
boomed in recent years because standards have been raised, 
largely thanks to the work of economic integration with the 
United States and with Canada.
    But there really does still need to be significant 
investment in the agricultural sector.
    With regards to the border, I would say that I am 100 
percent in agreement with what Shannon has said here. There is 
dramatic and urgent need for investment in border 
infrastructure. Mostly we tend to think about border crossings. 
That is something which I think is absolutely right. The payoff 
that we will get for each dollar invested in improving the flow 
of goods across the border will be enormous, much more than any 
other area I would say right now in the bilateral relationship. 
And that really is the umbilical cord of our economic 
relationship with Mexico. We need to invest heavily in that, in 
line with what the Mexican Government is going to do as well. 
They have already expressed an interest in doing that.
    In terms of security of the border, hitting at your 
original question, it is intriguing. How many terrorists have 
we actually captured trying to cross the border from Mexico? 
How effective has the border been in stopping undesirable goods 
and people crossing over? Building a wall is clearly not the 
answer when you see how many people are actually tunneling 
underneath the wall. It has become a matter, almost a matter 
for joking in our circles, the sophistication of the tunnels 
that extend underneath the border and the ways in which 
organized crime, human traffickers, are able to get their goods 
and people across the border, underneath the border.
    There is another issue as well about the border I would 
like to point to, which is that I think it is urgent that 
people here in Washington visit the border and understand what 
it means to be a border community, and to understand the 
questions of quality of life. When you look at how long the 
lineups are at the border and what the impact that has upon the 
environment just in terms of emissions levels from trucks and 
cars waiting there for hours to cross the border, the economic 
cost of it, not just upon those people trying to get their 
goods across the border, but upon the local communities there, 
that is something which I think needs to be experienced 
firsthand to really understand why this is an urgent issue.
    Thank you.
    Senator Udall. Thank you very much. I think your suggestion 
of visiting the border is a good one. I am sure all three of 
you have done that no doubt.
    Just a final question, going back to drug cartels. Among 
the drug cartels currently fighting in Mexico, which cartel in 
your opinion poses the biggest threat to United States and 
Mexico interests, and which ones are seeing their power wane in 
light of pressure from Mexican authorities?
    Dr. O'Neil. The back and forth of the drug cartels and who 
is on top and who is down is quite fluid. One thing we have 
seen with the approach of Calderon and the United States in 
directly confronting them is a fragmentation of these groups 
from perhaps a handful, half a dozen, to now dozens. So this is 
a pretty fast-moving target.
    There are some groups that are much more focused less on 
moving drugs and now on other businesses, things like extortion 
and human trafficking and contraband and the like. Particularly 
you hear a lot about the Zetas, a quite violent group located 
in many parts of Mexico, but along the border across from 
Texas, that, though hit quite hard, are still incredibly 
important, incredibly dangerous, and really prey on the Mexican 
population. And they are important for Mexico, particularly 
important for Mexico, but also for the United States, as there 
is some evidence that they have strong ties into the United 
States, money-laundering, businesses, and the like.
    What I would say before we start thinking is it this group 
or is it that group, because some of this is moving around so 
much, is that this threat of organized crime more generally in 
Mexico is what is the national security threat to Mexico and to 
the United States. This country, which is so linked to our own, 
if it does well it has huge payoff for the United States, and 
if it does poorly the repercussions for the United States reach 
far beyond the Southwest border of the United States.
    So moving forward, as we think about what to do, helping 
them with these long-term institution-building, creating a 
justice system that can punish the guilty and free the 
innocent, creating police forces that local communities can 
actually trust rather than fear, creating programs that help 
local communities stitch back together the social fabric that 
is often been rendered by whether it is crime or immigration or 
the like, those are things I think we should be thinking about 
in the United States and trying to work with Mexico on. And 
then we can take on whatever the name of the particular group 
that's preying on citizens in both places.
    Senator Udall. Thank you.
    Mr. Steinberg.
    Mr. Steinberg. First I would like to build on a point that 
Dr. O'Neil made, which is that we really cannot talk about 
these as drug trafficking organizations any more, because we do 
not have the luxury of dealing with groups for whom that is 
even their majority interest. In fact, organized crime in 
Mexico now is in basically every single illicit industry, with 
the exception until 
now, from what we have seen, of the trafficking of nuclear 
materials, which means that they are involved in extortion, 
money-laundering, trafficking of migrants, trafficking of 
children, prostitution, you name it.
    The challenge of confronting organizations like that is 
that the arm of their influence often reaches into state 
agencies and government. This is I think a critical point to 
make in this hearing, which is that oftentimes we think of 
organized crime on one side of the line and the state on the 
other. What makes work in Mexico so challenging today--and we 
see this even in cases that we document--is that you have 
organized crime working hand in glove with state agents, and 
this is not only at the local level.
    We have 70 cases in this report of people who were 
disappeared by state agents and handed over to cartels, who 
later were probably executed. So this is hand-in-hand work.
    The last point I would like to make, point I would like to 
make, is that I would be very wary of pointing to certain 
cities as success stories where the violence has gone down, 
because there are many narratives that we can construct in 
order to tell why the violence has decreased, for example in a 
place like Juarez or Tijuana, and one of them is that one of 
the organized crime groups that was battling for supremacy in 
those places succeeded in controlling that space and the other 
backed down.
    For every city or state where violence has decreased, there 
is another where it has increased. Juarez goes down, Torion 
goes up. Monterrey goes down, Veracruz heats up. So the 
violence and Mexico, I think we have to see it as an epidemic. 
In one place it may cool down, but overall the situation of 
capture of territory and of control of every aspect of daily 
life is very real.
    Thank you.
    Senator Udall. Thank you.
    Final thoughts, Dr. Wood?
    Dr. Wood. Yes. I think to answer the question we have to 
ask another question: What is it we are trying to achieve here? 
Are we trying to stop the flow of drugs or are we trying to 
reduce violence levels in Mexico to make it a more governable 
and a country that is governed by the rule of law, I would say? 
If we ask that question, then I think that there is no doubt in 
my mind that it is the Zetas who pose the biggest threat to 
Mexico, just in terms of the fact that you look at what is 
taking place in the state of Talmalpais right now and there is 
a complete absence of the rule of law. The fact is that we do 
not even know what is going on there because journalists are 
too terrified to report on it.
    I think that this is one of the issues that we really do 
need to work on, to try to get a clearer idea of what is 
happening in that state just across the border from the United 
States, and to ask the question of how we can actually have a 
positive impact upon that. Some of that work can take place at 
the border, but a lot of it has to take place with the Federal 
Government. I think we are really waiting right now for the 
Mexican Federal Government to come up with a strategy for 
Tamalpais.
    Overall, I would say that is the biggest challenge in the 
long term to Mexico, is to overcome the culture of impunity and 
to reestablish the rule of law, not just in terms of criminal 
law and justice, but in terms of the economic rule of law 
throughout society as well. I would say that is really where we 
should be focusing our efforts.
    Thank you.
    Senator Udall. Thank you.
    Well, let me just say in conclusion that I think this has 
been an excellent panel and I think your testimony has helped 
us really look at the challenges and look at what faces us and 
be able to come up with some realistic, good, solid, solid 
solutions to what is going on and know where we need to push.
    I also want to thank your organizations and your service to 
them. I think each of your organizations adds so much to the 
public discussion, and your dedication to them and the work 
that you do, it helps us I think here in the Senate kind of 
move in the right direction.
    So with that, we are going to leave the record open for one 
week, and the subcommittee stands adjourned. Thank you very 
much.
    [Whereupon, at 5:02 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
